<html>
<title> - COMBATING YOUTH VIOLENCE: WHAT FEDERAL, STATE AND LOCAL GOVERNMENTS ARE DOING TO DETER YOUTH CRIME</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
COMBATING YOUTH VIOLENCE: WHAT FEDERAL, STATE AND LOCAL GOVERNMENTS ARE 
                       DOING TO DETER YOUTH CRIME

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 3, 2006

                               __________

                           Serial No. 109-265

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
45-334 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                      Benjamin Chance, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Dennis Kilcoyne, Professional Staff Member
                        Kimberly Craswell, Clerk
           Shaun Garrison, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 3, 2006..................................     1
Statement of:
    Jackson, Rev. Jesse..........................................    91
    Loosle, Robert B., Special Agent in Charge, Criminal 
      Division, Los Angeles FBI; and John A. Torres, Special 
      Agent in Charge, LA Field Division, ATF....................     9
        Loosle, Robert B.........................................     9
        Torres, John A...........................................    19
    Trejo, Danny, film actor and former gang member; Chief Ronnie 
      Williams, Los Angeles Sheriff's Department; Jerald Cavitt, 
      former gang member; Captain Regina Scott, patrol commanding 
      officer, Southwest Division, Los Angeles Police Department; 
      Charlotte Jordan, CEO, Mothers on the March; Dan Isaacs, 
      chief operating officer, Los Angeles Unified School 
      District; Eddie Jones, president, Los Angeles Civil Rights 
      Association; and Rev. Dr. Clyde W. Oden, Jr., senior pastor 
      at Bryant Temple AME Church, board member of the African 
      American Summit on Violence Prevention.....................    35
        Cavitt, Jerald...........................................    49
        Isaacs, Dan..............................................    69
        Jones, Eddie.............................................    78
        Jordan, Charlotte........................................    62
        Oden, Rev. Dr. Clyde W., Jr.,............................    81
        Scott, Captain Regina....................................    54
        Trejo, Danny.............................................    35
        Williams, Chief Ronnie...................................    37
Letters, statements, etc., submitted for the record by:
    Baca, Leroy D., sheriff, Los Angeles County Sheriff's 
      Department, prepared statement of..........................    40
    Cavitt, Jerald, former gang member, prepared statement of....    51
    Isaacs, Dan, chief operating officer, Los Angeles Unified 
      School District, prepared statement of.....................    72
    Jones, Eddie, president, Los Angeles Civil Rights 
      Association, prepared statement of.........................    80
    Jordan, Charlotte, CEO, Mothers on the March, prepared 
      statement of...............................................    63
    Loosle, Robert B., Special Agent in Charge, Criminal 
      Division, Los Angeles FBI, prepared statement of...........    11
    Oden, Rev. Dr. Clyde W., Jr., senior pastor at Bryant Temple 
      AME Church, board member of the African American Summit on 
      Violence Prevention, prepared statement of.................    83
    Scott, Captain Regina, patrol commanding officer, Southwest 
      Division, Los Angeles Police Department, prepared statement 
      of.........................................................    57
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Torres, John A., Special Agent in Charge, LA Field Division, 
      ATF, prepared statement of.................................    21


COMBATING YOUTH VIOLENCE: WHAT FEDERAL, STATE AND LOCAL GOVERNMENTS ARE 
                       DOING TO DETER YOUTH CRIME

                              ----------                              


                        TUESDAY, OCTOBER 3, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                   Los Angeles, CA.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the F.A.M.E. Renaissance Center, 1968 West Adams Boulevard, 
Suite 400, Los Angeles, CA, Hon. Mark E. Souder (chairman of 
the subcommittee) presiding.
    Present: Representatives Souder and Watson.
    Staff present: Marc Wheat, staff director; Dennis Kilcoyne 
and Jim Kaiser, professional staff members and counsels; Scott 
Springer and Mark Fedor, congressional fellows; Kimberly 
Craswell, clerk; Tony Haywood, minority counsel; and Shaun 
Garrison, minority professional staff member.
    Mr. Souder. The subcommittee will come to order. Good 
morning and thank you all for coming. This is actually the 
second hearing our subcommittee has had this year on the topic 
of gangs. The first focused on illegal immigrant gangs and was 
over on the East Coast, while today's hearing focuses on the 
problem of gangs and youth violence in general and what 
government, community groups and private citizens should do and 
are doing to discourage crime and prevent young people from 
being caught up in the culture of violence and despair.
    For many people, where the subject of gangs is raised, 
particularly in expressions of popular culture, images of Los 
Angeles streets come to mind. Fair or not, the city and its 
surrounding communities are at times associated with gangs, 
particularly the ``Bloods'' and the ``Crips'' from the 1970's 
onward. And as immigration--legal and illegal--swells the 
numbers of adolescents in this country, the southern California 
gang picture is becoming more diverse, as violent gangs like 
Mara Salvatrucha--MS-13--and the Latin Kings take root.
    A ``gang'' has been defined as ``a group that forms an 
allegiance based on various social needs and engages in acts 
injurious to public health and safety.'' More broadly speaking, 
gangs of crime-prone young people are more likely to form in 
areas that are blighted economically and where healthy 
community ties of family, school, culture and religion are 
weak. The need for kinship and belonging draws young people 
together where such ties are loose or non-existent, making them 
vulnerable to pressures to surrender to a culture of 
selfishness, greed, violence and rampant materialism.
    If they do surrender to joining a gang, they are drawn 
deeper into crimes such as drug dealing and abuse, assaults, 
robbery, theft, rape and even murder. When individuals fall, 
law enforcement at all levels of government must step in to 
cope with the consequences. But the entrance of government at 
this point is an acknowledgement of failure and by itself can 
never be a satisfactory response.
    Given the nature of the discussion of late on the subject 
of gangs, many will be surprised to find that the most recent 
government statistics point--since the mid-90's--to declining 
levels of crime involving youth. This is so even where numbers 
of young people are rising, including in poor Hispanic areas. 
Notable exceptions include a curious and disturbing level of 
crime by young girls, as well as an increase in the number of 
children arrested for drug abuse. We are concerned with a 
seeming recent rise in violent gang activity.
    Law enforcement at all levels of government must be 
assertively and judiciously applied to cope with youth crime in 
the here and now. That involves investigation, arrest and 
punishment of crimes that have already occurred, as well as 
active efforts to dismantle entire gang networks, rather than 
just picking off individual gang members one at a time.
    But law enforcement is no more than a third of any 
comprehensive anti-gang effort. Any credible strategy to deal 
with youth crime must also involve intervention and prevention. 
Law enforcement responds with traditional strategies of 
investigation, arrest, disruption and prosecution.
    But families, churches and community associations must 
intervene and provide young people a safe and reliable way out 
of crime and gang ties. The most difficult--and most 
important--element of an anti-gang strategy is prevention. 
Stronger families and communities must exist in order to 
deprive gangs of their oxygen of greed, selfishness, despair 
and lack of hope.
    This hearing will explore the progress of government and 
private-sector participants in coping with the problems of 
gangs and youth crime in Los Angeles, and will explore their 
efforts at preventing the lure of gang culture from taking root 
in the hearts of vulnerable young people.
    We have a very promising group of witnesses with us today. 
On our first panel, we have Robert Loosle, who is the Special 
Agent in Charge of the FBI's Criminal Division here in Los 
Angeles. He is joined by John Torres, Special Agent in Charge 
of the Los Angeles Field Division of the Bureau of Alcohol, 
Tobacco and Firearms.
    For our second panel, we will hear from Danny Trejo, an 
accomplished film actor and former gang member; Chief Ronnie 
Williams of the Los Angeles Sheriff's Department; former gang 
member and community activist Jerald Cavitt; Captain Regina 
Scott, who is the patrol commanding officer of the LAPD's 
Southwest Division; Charlotte Jordan, who is the CEO of Mothers 
on the March; Chief Operating Officer Dan Isaacs of the L.A. 
Unified School District; Eddie Jones, president of the L.A. 
Civil Rights Association; and the Reverend Dr. Clyde W. Oden, 
Jr., who is senior pastor at Bryant Temple A.M.E. Church and 
board member of the African-American Summit on Violence 
Prevention. Thank you all for coming, and we are looking 
forward to your testimony.
    Now I yield for an opening statement to our host and good 
friend, Congresswoman Watson.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.001
    
    [GRAPHIC] [TIFF OMITTED] T5334.002
    
    Ms. Watson. Mr. Chairman, I want to personally thank you 
for convening this subcommittee hearing in my congressional 
district. You are in the heart of the district now and as far 
north as you can see is the 33rd Congressional District. You 
can locate its boundary lines by seeing that Hollywood sign. We 
go over to the ocean. We go around the boundaries of Culver 
City. Then we go all the way over to Glendale and through 
Griffith Park.
    I even go up into Ferndale. I have all two houses up there. 
And I go down and take in USC and go all the way down to where 
old Pepperdine was. You are right in the heart of the 33rd 
District and you are going to find that there is a lot of 
information you can glean from people who know this community 
and this city well. It is an honor and a privilege to bring 
Capitol Hill to Los Angeles so not only my constituents but 
those across the Nation can see the ongoing problems in our 
communities stemming from youth violence.
    It is also an honor to have this outstanding and 
knowledgeable panel of Federal, State, and local witnesses here 
to discuss from the horse's mouth, if we want to say that, what 
is occurring on a daily basis in our neighborhoods of Los 
Angeles and find out what Congress can do to make our citizens 
feel safe in them.
    I would also like to thank F.A.M.E. Renaissance, the 
building that we are in now, for their support in helping 
coordinate this event and their continued support and uplifting 
they give the city of Los Angeles and beyond. Violence in 
American society has reached pandemic levels. Los Angeles has 
for many years suffered from serious levels of youth as well as 
gang violence.
    While many experts on youth violence believe there are 
encouraging signs that youth violence, at least when you look 
at the statistics, is on the decline, everyone in this room 
knows that youth violence in general directly impacts our 
quality of life.
    Let me briefly cite some statistics on youth violence that 
underscore and dramatize the nature of the beast we are dealing 
with. Of the estimated 23 million youth in the United States 
age 12 to 17, the national household survey on drug abuse 
showed that more than 5 million of those youth reported 
participating in serious fighting at school or work and almost 
4 million took part in a group against group fight.
    In a single year in California nearly 6,000 young people 
are hospitalized for some form of violent injury including 
assault, child abuse, domestic violence, and rape. In Los 
Angeles County alone, between 1981 and 1992, 15,000 people died 
of AIDS but 22,000 died as a result of homicides.
    In Los Angeles County, the use of semi-automatic handguns 
in gang-related killings has more than quadrupled to more than 
40 percent. These statistics are indeed startling. What is even 
more scary is the fact that school, a place where kids are 
supposed to learn how to become better contributors to society, 
is no longer a safe haven. Murders and crimes have haunted many 
schools in areas around the Nation.
    Crenshaw and Jefferson High School in my congressional 
district have been and have seen death and violence at a rapid 
pace in 2006 alone. Just today you are hearing what happened 
back in Pennsylvania in an Amish community detached from the 
regular world. To think someone can come in and kill innocent 
children boggles the mind.
    We can see by what occurred yesterday how violence can 
occur in an academic setting where no one expected it. When you 
look at the Amish school and the fact that these youth don't 
even watch television, they don't listen to radios, they don't 
go to the movies, and they could be visited by that violence, 
we have a problem. The culture of youth and gang violence must 
stop.
    Our panelists today, along with Congress, should be working 
together to find solutions that endure and that ensure that 
effective resources to deter youth violence are working and 
those programs are made available to all youth caught up in 
this epidemic of violence and crime. The key to preventing or 
stemming the increase of youth violence is to understand where 
and when it occurs, what causes it, and what strategies for 
prevention and intervention are most effective.
    In the not too distant future, the very youth we are 
discussing we hope will be business leaders, employees, 
parents, civic and community leaders. Our children indeed are 
the future of our Nation and we must continue to teach them 
well by example that violence solves nothing and good 
communities work together, not against one another.
    Mr. Chairman, I would like to thank you again for holding 
the hearing and I would like to thank our witnesses for taking 
the time out of their very busy schedules to show the United 
States how violence has affected Los Angeles and what we are 
going to do together to address this problem. I yield back and 
thank you.
    Mr. Souder. Thank you very much. Maybe I will take just a 
couple minutes to explain a little bit the format of a 
congressional hearing and what our subcommittee is. There are 
basically three types of committees in Congress. An authorizing 
committee defines, for example, in No Child Left Behind, what 
education policy should be.
    The Appropriations Committee then funds what the 
authorizing committee would say the most you could spend in 
that and basic policies. The Appropriations Committee funds it. 
Government reform and oversight, which is the part of Congress 
that this committee is part of and this subcommittee, then sees 
that the executive branch is implementing the policies as 
intended, that the moneys that went to State and local are 
being implemented as intended to look at what things are being 
done that are positive to start in the oversight another 
process that then goes back to the authorizing committee and 
starts the process over.
    For example, on gangs the authorizing committee would be 
the Judiciary Committee, Appropriations would fund it. Our 
committee has oversight over criminal justice and all things 
related, so we would do oversight on gangs and then take the 
findings that we have at a hearing like this and kick them back 
to the authorizing committee. All Members of Congress sit on 
all types of committees. That sounded nice and pure.
    In fact, we are an authorizing subcommittee on narcotics as 
well as broader. This particular subcommittee has wide 
jurisdiction for a number of reasons, partly because we deal 
with narcotics and terrorism, but we also have oversight over 
the Department of Education, the Department of Health and Human 
Resources, any program in the Department of Justice, anything 
anywhere to do with narcotics and with the Department of 
Housing and Urban Development, partly because when we got into 
justice policy and into narcotics policy, we realized that we 
needed to look at all the agencies and what they are doing 
relative to that.
    In the way it has evolved in Congress, our subcommittee 
spends about 50 percent of our time on narcotics because we are 
the primary committee for authorizing oversight on narcotics. 
Clearly, when you get into subjects of youth violence, of 
gangs, of all this type of thing, you are going to get into the 
narcotics question as well.
    Now an official congressional hearing is chaired by the 
majority party. I am a conservative Republican from Indiana. 
Contrary to popular suspicion, we don't all claw each other's 
eyes out all the time. In fact, we have an excellent working 
relationship. Generally speaking, we agree on a lot of the 
problems. Sometimes we have differences on the solutions.
    I don't want to hurt Congressman Watson by implying she 
agrees with everything but, at the same time, she has been a 
very active member of our committee and has been an active 
leader and advocate for Los Angeles for those who are often 
dispossessed in the political system. I appreciate her 
leadership and that is why I am here even though I have an 
election in Indiana right now. This issue has been increasing 
in pressure.
    One other thing: you'll see our witnesses are each given 5 
minutes and then we do questions to them. This is not a 
participatory event. If anybody wants to submit statements 
afterwards, you can either go to the committee or Congressman 
Watson. We are the only committee that directly does swearing 
in of the witnesses that you will see today. Probably the 
most--well, we did lots of investigations on Bureaucracy. We do 
it all the time on a wide variety of subjects. Probably the 
most well known in this past year was the steroids 
investigation.
    Mr. Loosle, you are sitting where Jose Conseco sat on that 
side. Mark McGuire was roughly where you are, Mr. Torres, when 
he said that he didn't want to talk about the past. Today we 
are here hoping you will talk about the past and discuss it 
because we can't learn how to correct things if we don't, in 
fact, talk about the past.
    I wanted to do just a little outline. The results of today 
will go through a period of checking for grammatical errors and 
getting additional questions, because we will supply probably a 
number of questions to the different people involved and others 
who weren't here today. Then it gets published in a form of a 
book about 6 months later so this becomes part of the permanent 
record of the U.S. Congress and the Library of Congress. 
Anybody who wants to do gang research will be able to come back 
to today's hearing.
    With that background, I have two procedural matters. Before 
we hear testimony we need to take care of some procedural 
matters. First I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record; that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by witnesses and 
Members be included in the hearing record and that all Members 
be permitted to revise and extend their remarks. Without 
objection it is so ordered.
    Finally, I ask unanimous consent that all Members present 
be permitted to participate in the hearing. Without objection 
it is so ordered.
    What that says, by the way, is all witnesses will have 
their full statement put in the record automatically and any 
information that you want additional to provide.
    As I mentioned, it is the rule of this subcommittee to 
swear in all their witnesses so, Mr. Loosle and Mr. Torres, if 
you will stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both the witnesses 
responded in the affirmative. We thank you very much for 
coming, and now be recognized for your opening statements.

   STATEMENTS OF ROBERT B. LOOSLE, SPECIAL AGENT IN CHARGE, 
CRIMINAL DIVISION, LOS ANGELES FBI; AND JOHN A. TORRES, SPECIAL 
            AGENT IN CHARGE, LA FIELD DIVISION, ATF

                 STATEMENT OF ROBERT B. LOOSLE

    Mr. Loosle. Good morning Chairman Souder and Ranking Member 
Watson. I appreciate the opportunity to testify before you 
today about combatting violent gangs in Los Angeles. I want to 
thank you again for providing me the opportunity to appear 
before you and speak on the issue of violent gangs in Los 
Angeles. Los Angeles has long been recognized as the epicenter 
of gang activity nationwide.
    Recent estimates place approximately 1,350 street gangs 
with as many as 175,000 members in Los Angeles area. In 
addition, many gangs which today have a nationwide presence, 
such as the Bloods, the Crips, Mara Salvatrucha--MS-13--and 
18th Street, can trace their roots to Los Angeles.
    In Los Angeles, street gangs comprise the primary violent 
crime challenge to the area's law enforcement agencies. 
Although law enforcement has been effective in reducing the 
criminal threat posed by gangs in the Los Angeles area, 
recruitment efforts by gang members have continued in recent 
years. Local neighborhoods, prisons, the Internet, and schools 
have been targeted as ``hot-spots'' for gang recruitment.
    In an effort to address the violent gangs in Los Angeles, 
the FBI's Los Angeles Division, in conjunction with a number of 
Federal agencies, State and local partners, realized early on 
the need to attack the problem as a unified force. In the wake 
of the Los Angeles riots of 1992, the FBI formed the Los 
Angeles Metropolitan Task Force on Violent Crime [LAMTFVC], a 
nationally known Safe Streets Task Force.
    The FBI has also established a National Gang Strategy to 
identify the gangs posing the greatest danger to American 
communities. Targeting gangs identified within the National 
Gang Strategy, the FBI is utilizing the same statutes and 
investigative techniques that have been traditionally used 
against organized crime groups.
    Some of the gangs being addressed under the National Gang 
Strategy in the Los Angeles area are the Bloods, the Crips, MS-
13, 18th Street, and the Mexican Mafia--EME. The gangs targeted 
by the Los Angeles FBI have gained notoriety for their extreme 
level of violence, their flexibility, their high-level of 
organization, and their willingness to participate in a wide 
variety of criminal activities.
    Although the level of sophistication in their criminal 
activities may vary, these gangs remain consistently violent. 
These gangs are primarily engaged in retail drug trafficking, 
specifically involving powder cocaine, rock cocaine, 
methamphetamine, heroin and marijuana. These gangs are also 
involved in a variety of other types of criminal activity, 
including murder, assault, extortion, robbery and, for the 
Hispanic gangs, alien smuggling.
    On September 12, 2006, the Los Angeles Metropolitan Task 
Force on Violent Crime executed 15 search and arrest warrants 
upon individuals associated with the 18th Street gang and the 
Mexican Mafia. In fact, Federal search and arrest warrants were 
executed at two residences associated with a ``shot caller'' of 
this organization within blocks of the location where we sit 
today, located at 2630 South Harvard and 3016 South Dalton, 
both of which are located within three blocks east and south of 
this center.
    Although I have spent considerable time discussing the 
significance of gang violence and gang influence in Los 
Angeles, I would be remiss if I did not suggest that more could 
be done. If we are going to win this battle, we need to be more 
proactive in preventing our youth from engaging in gang 
activity, and rehabilitating those who choose to leave. I would 
like to suggest a three pronged approach to achieving this 
goal: prevention, intervention, and rehabilitation.
    Prevention: First and foremost we must prevent future 
generations of youth from falling into the entrapments of gang 
culture. As law enforcement officers, we must work closely with 
community, schools, and churches to find ways to dissuade our 
youth from joining gangs. We must show them gangs are not a 
glamorous or attractive lifestyle and definitely not an 
educational or vocational alternative.
    Intervention: We must work together, with local, State, 
Federal, and international law enforcement to identify and 
target the most violent gangs, and then we must focus on 
disrupting their activities and dismantling their 
infrastructure.
    Rehabilitation: We must ensure there are programs in place 
to rehabilitate those who seek to change their ways. We, as law 
enforcement, need to work with these groups to ensure a 
successful and enduring change in these individuals.
    Once again, I appreciate the opportunity to come before you 
today and share the work the FBI is doing and I would be happy 
to answer any questions.
    Mr. Souder. Thank you very much.
    Mr. Torres.
    [The prepared statement of Mr. Loosle follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.003
    
    [GRAPHIC] [TIFF OMITTED] T5334.004
    
    [GRAPHIC] [TIFF OMITTED] T5334.005
    
    [GRAPHIC] [TIFF OMITTED] T5334.006
    
    [GRAPHIC] [TIFF OMITTED] T5334.007
    
    [GRAPHIC] [TIFF OMITTED] T5334.008
    
    [GRAPHIC] [TIFF OMITTED] T5334.009
    
    [GRAPHIC] [TIFF OMITTED] T5334.010
    
                  STATEMENT OF JOHN A. TORRES

    Mr. Torres. Good morning Chairman Souder and Representative 
Watson. Thank you for the invitation to testify on behalf of 
the Bureau of Alcohol, Tobacco, Firearms and Explosives. I 
would like to acknowledge our outstanding partnerships with the 
FBI, the LAPD, Los Angeles Sheriff's Department, DEA, U.S. 
Marshals Service to dismantle gangs and investigate violent 
crime.
    ATF is keenly aware of the nationwide gang problem that 
plagues our communities. We understand the urgency of reducing 
gun violence committed by and against youth and we are 
dedicated to making America safer. ATF initiatives are designed 
to identify, arrest, and prosecute those offenders responsible 
for crippling our community and also to deter young people from 
joining violent gangs.
    ATF's core jurisdiction--enforcing laws that prohibit the 
criminal misuse of firearms and explosives--has placed us at 
the center of gang investigations involving Los Angeles groups 
such as the Avenues, Diamond Street, Bloodstone Villians, and 
Fruit Town Pirus. ATF has unique statutory authority over the 
``tools of the trade'' that make gangs a threat to public 
safety.
    I would like to share with you some brief examples of how 
ATF gang-enforcement activities are having an impact and making 
our communities safer. In Los Angeles, ATF conducted an 
investigation involving Crips gang members trafficking weapons 
and narcotics. This gang was also involved in armed robberies, 
homicides and drive-by shootings. To date, 37 individuals have 
been charged with conspiracy to violate Federal firearms and 
narcotics laws. As a result of the investigation a total of 19 
firearms, cocaine, methamphetamine, and $50,000 in counterfeit 
currency have been recovered.
    Recently, in Northern Virginia, ATF conducted an 18-month 
undercover investigation where an MS-13 operation was disrupted 
and dismantled. The investigation resulted in the purchase of 
over 80 firearms, cocaine, and marijuana. To date, 20 of the 
defendants have pled guilty or have been found guilty in jury 
trials. Three of these defendants have been implicated in the 
murder of an individual who was scheduled to testify against an 
MS-13 member. One defendant was sentenced to 30 years 
imprisonment and 2 additional defendants are facing the death 
penalty.
    Chairman Souder, our Fort Wayne, IN, office investigated a 
firearms trafficking conspiracy consisting of 24 persons in 
which 156 firearms were purchased utilizing a multitude of 
straw purchasers from local firearms dealers. The serial 
numbers were obliterated, and the guns were then delivered to 
gang members throughout Fort Wayne and Chicago.
    Many of these firearms were recovered from notorious 
Chicago gangs. The firearms recovered had been used in the 
commission of serious felonies including aggravated assault, 
robbery, and narcotics trafficking. The two ring leaders were 
sentenced for ATF violations and served 52 months and 110 
months in Federal prison, respectively.
    Our efforts to combat gang violence nationally are a major 
part of the Project Safe Neighborhoods or PSN initiative. PSN 
is the President's violent crime reduction initiative for the 
prevention and prosecution of gun and gang crime. Since the 
program's inception, ATF has led enforcement efforts by working 
closely with our State and local partners to investigate gangs 
and other violent firearms offenders.
    In fiscal year 2005, ATF investigations resulted in the 
conviction of 8,353 defendants on firearms-related charges. In 
the past 2 years more than 12,000 firearms linked to gang 
activity have been recovered in crimes, leading to a variety of 
criminal charges, including CCE and RICO.
    The Attorney General describes gang-related violence as the 
second most critical domestic crime priority behind only the 
war on terror. Combating violent crime is such a priority for 
the Attorney General that he has announced a new anti-gang 
initiative. ATF plays a critical role in these initiatives 
through our enforcement efforts, and also through our 
prevention strategies such as the Gang Resistance Education and 
Training [GREAT] program.
    Firearms trafficking, the illegal diversion of firearms out 
of lawful commerce and into the hands of criminals, is often 
the method by which gangs and youths arm themselves. By tracing 
the origins of firearms recovered in crimes, patterns emerge 
that allow investigators to identify gun traffickers. Since 
2000, convictions in ATF trafficking cases have increased by 
more than 150 percent.
    Chairman Souder and Congresswoman Watson, on behalf of the 
men and women of ATF, I thank you for your time and interest in 
the work performed by our agency to reduce juvenile crime and 
gang violence. Historically, we have worked to stop those whose 
violent and criminal behavior threatens the peace of our 
communities. We are determined to succeed in our mission of 
preventing terrorism, reducing violent crime, and protecting 
our Nation. Thank you again. I will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Torres follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.011
    
    [GRAPHIC] [TIFF OMITTED] T5334.012
    
    [GRAPHIC] [TIFF OMITTED] T5334.013
    
    [GRAPHIC] [TIFF OMITTED] T5334.014
    
    [GRAPHIC] [TIFF OMITTED] T5334.015
    
    Mr. Souder. Let me start with a couple of basic groundwork-
laying questions. Knowing these things are about impossible, do 
you have any idea of the estimated national number of gang 
members at this time? At various times in the last 20 years, 
Los Angeles has been seen as the center of 25 to 40 percent of 
these. Do you have any idea of the LA region's percent of the 
national?
    Mr. Loosle. I know that one of the figures that has been 
quoted as a national number of gangs is 800,000 members and 
these includes all gangs, not just Bloods, Crips, Mara 
Salvatrucha, or 18th Street. These are all gangs. I do not know 
what the percentage is in the LA area of that 800,000, but I 
can get those figures for you.
    Mr. Souder. Have you had an estimate in the Los Angeles 
region how many gang members there are; 100,000; 50,000?
    Mr. Loosle. The figures I gave were 175,000 in the Los 
Angeles area.
    Mr. Souder. That would suggest almost 20, 25 percent. We 
understand those figures are just estimates. Particularly when 
you are dealing with illegals, in many cases it is hard to 
estimate. It is not like they have a membership card.
    Mr. Loosle. Yes, sir. They are estimates.
    Mr. Souder. Twice when I was a staffer, once in the House 
and once in the Senate, in Los Angeles, once in the mid 1980's, 
once right after the riots, I met a number of individuals who 
were working particularly with getting activity at that time.
    One man was B. J. Guinness and one of the things that he 
told me was that often the violence occurs when there are turf 
battles where you would see Hispanic, Anglo, Asian, and African 
American gangs as the neighborhoods would come into conflict, 
or if there was a structure much like drug cartels when one new 
gang arises after an old gang or the absence, death, arrest of 
a leader, a turf fight.
    Is declining violence a sign that--first off, do you agree 
that violence in LA has declined? I kind of got that impression 
from your statements that the violence had declined. Although 
arrests are up nationally, the implication was that violence 
has declined here some.
    The second part of that is is it because some gangs have 
now been able to stake out their turf and have, in fact, 
control and the violence is down even though the membership is 
high because they have effective control of certain areas?
    Mr. Torres. As far as the violent crime reducing, it has 
gone down and part and parcel of that is, quite frankly, Chief 
Bratton's COMPSTAT approach as far as dedicating resources to 
hot spots. Actually, ATF has taken a step toward implementing 
COMPSTAT also.
    As far as the control of the actual geography that they 
claim is theirs, without getting into specifics, I mean, there 
are still a lot of gangs out there attempting to obtain 
firearms to protect their area and they are doing so 
aggressively. Yes, you are right; it is reducing, but they are 
still out there trying to attempt to get the arms that they 
need to protect themselves.
    Mr. Souder. Do you believe that the violence is, in fact, 
most likely to occur where there are turf wars or border 
conflicts?
    Mr. Loosle. I think that is one of the many areas in the 
case of MS-13. Because of the numerous cliques that make up MS-
13 both locally, nationally, and internationally, you will have 
again attempts to control areas by the different cliques in MS-
13. Of course, their rivalry with the 18th Street. As long as 
you have this loose confederation of cliques out there, there 
will be still some type of rivalry.
    Mr. Souder. My understanding is one of the other big areas, 
and if you could comment a little bit on how we handle 
prisoners. I was also told in the mid 1980's and early 1990's 
that one of the goals to break gangs was to try to disperse 
them so they weren't all concentrated in Southern California 
prisons. Part of the Bloods and Crips went to Kansas City and 
then to Chicago and then into my hometown via Chicago. What is 
the movement through the prison improvement?
    Are you tracking that? Are you looking at prison re-entry 
programs? Not just prison re-entry programs but actually 
programs in prisons are critical here because if the prisons 
turn into a gang expansion activity, it is a multiplier effect 
rather than a reduction. Could either of you address that 
question?
    Mr. Torres. As far as any of the Hispanic or African 
American gangs, I can't talk about that. However, I can talk 
about the strategy that the prison department has had with the 
Aryan Brotherhood. They have concentrated in a certain prison, 
in the Federal system anyway. As you may or may not know, there 
is a big trial going on with the Aryan Brotherhood now where 
two have just recently been convicted. To answer your question, 
I am not sure if that is helping very much as far as 
concentrating them in one area.
    Mr. Loosle. I can't speak for the Bureau of Prisons, but I 
do know they are tracking a lot of this and this is one reason 
in the counter-terrorism aspect we are so concerned with 
Islamic radicalization in the prisons. We have the same type of 
radicalization or recruitment by area nations, KKK, Bloods, 
Crips. All the groups have that aspect to them so it is a 
concern and I do know the Bureau of Prisons is tracking that. I 
just can't speak to the specifics of it.
    Mr. Souder. I may have a few more questions but I will 
yield to Congresswoman Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    Mr. Loosle, can you discuss the new national gang strategy 
and how it differs from previous strategies which date back, as 
you know, to the early 1990's, and how it informs the FBI 
approach to gang investigations and related efforts in Los 
Angeles, nationally? And then let's zero in on Los Angeles.
    Mr. Loosle. Actually it's sort of a multi-layer approach. 
What we are doing nationally is trying to identify those gangs 
that are most violent. In fact, I believe Mr. Torres referred 
to Gang Tech, which is also a new component within the 
Department of Justice that does target the most violent gangs.
    What we do with information that we get from local, State, 
and, of course, our Federal agencies is put that together and 
try to see where the hot spots are geographically and then what 
gangs are the most notorious or most violent in those hot 
spots.
    We also gain a lot of information from our colleagues 
overseas internationally and try to track members of gangs that 
are floating back and forth transnationally to see what type of 
gangs we need to focus on.
    Ms. Watson. When Representative Simpson Brenner, Chair of 
Judiciary, had his bill on the floor that would identify the 
hot spots of gang activities, I had the bill amended to consult 
with local, State, and Federal elected officials. These are our 
districts. We know them well but we don't get this dialog 
coming between your agency and us. We hear on the ground. We 
are in our districts all the time.
    Representative Souder goes back and forth to his and I fly 
all the way out to my district every weekend. We don't have 
that much exposure. We have to call the FBI in to share with 
us. We can share information with you. I would ask that you be 
sure that we are kept informed and we need to have a 
statistical base so we can enter into this debate in a positive 
way. I would appreciate you taking that back to your agency.
    Mr. Loosle. Thank you and I will, Congresswoman. I agree 
with you that we do need to have both law enforcement and the 
community to talk closer together on prevention, on our 
intervention techniques, and on rehabilitation programs on this 
three-pronged approach. I believe if we all do it from the 
grassroots level all the way to the top for decisionmaking, we 
can be more effective.
    Ms. Watson. This is why I am so pleased that we are holding 
this hearing, Representative Souder, right here in the center 
of these activities. We need to do more information sharing.
    To Mr. Torres, what provisions are in place to ensure that 
firearms dealers are complying with their Federal firearm 
license and that their guns aren't ending up in the hands of 
children? I am going to get very personal with this. I have a 
firearm dealer right in the center of my district around the 
corner from two high schools, around the corner from a middle 
school, in walking distance of four elementary schools. We have 
been trying to close them down.
    I have gone to ATF. I said they are out of compliance. ATF 
gave them their license again. We have an ordinance that was 
passed 3 years ago that prohibited gunshots within that 
corridor, Crenshaw corridor. It is being ignored by the city 
attorney. I have gone to the mayor. I have gone to the Attorney 
General and no one has gone in and investigated this.
    Where are our young people getting the guns? We do not 
manufacture AK-47s. I do know as a witness, I live right up the 
street from the shop, that there are automatic weapons that are 
prohibited for sale here in the State of California. I do not 
know why ATF renewed their license. I was told by the owner 
that they sell to LAPD, to foreign nations, and to the 
military.
    I saw a lot of activity going on during the 38-day war 
between Lebanon and Israel. We have two ordinances. They were 
given a phony license and it says, ``No ammunition.'' They sell 
ammunition. They bought up property across the street that used 
to be a restaurant. It is called Total Experience. They have 
that place stocked full with weapons.
    Next-door to them was a 98 cent store owned by some 
Jamaicans. They wanted to buy the property. The guy wouldn't 
sell. He comes back several days later and his store has been 
conveniently fired bombed. I called the chief of police. No 
feedback. What is going on? There is not a gun manufacturer in 
my district, but the guns are located here. Can you respond?
    Mr. Torres. Yes, ma'am. I would be glad to. For the record 
I share your concerns. As a parent I do share your concerns. 
The licensee that you are referring to, when it was brought to 
my attention last year, we pursued an inspection vigorously, 
vigorously. Our inspectors did everything they did within their 
power in that inspection. We are obligated and mandated under 
the provisions of the Gun Control Act if that licensee follows 
all the mandates that they are required to, i.e., not convicted 
of a felony, 21 years old, subject to a background check, we 
are obligated to give them a license.
    However, if the city had found that they were out of 
ordinance, we could have pulled their license and that didn't 
happen. They were still zoned correctly within the city of Los 
Angeles to be a Federal firearms licensee, so at that point we 
really had no choice but to give them the license. We were 
obligated. We had to under the rules passed by Congress.
    Ms. Watson. Let me tell you the facts. They are out of 
compliance with the Crenshaw corridor specific plan which 
outlawed gun shops and porn shops. They are out of compliance 
with the city's pavilions for locating. They never had a public 
hearing to let the community know that what was a bank and then 
a pawn shop, Collateral Lenders, is now a gun shop.
    They never had that so I don't know what kind of 
investigation ATF did. We've got the laws on the book. I am 
going after the mayor on this one. I am going after the city 
council on this one. I am going after you. I have been on this 
for almost 3 years now and every time I call ATF I get a 
different story. They told me in the beginning, ``Oh, you are 
right in time because we haven't given them their license.''
    I said, ``They are out of compliance. Come and check it 
out.'' I have the records. I have a chronology. I have eye 
witnesses. OK? The guy wears a yamika. He hires locals to come 
out and tell me that we are prejudiced and we don't want them 
doing business in our community. It has nothing to do with 
that. They are operating illegally. The community wants them 
out. The gang members know they are there. They are right at a 
park. We have shootouts in that park. The local ordinances are 
being violated. I would like to go with ATF to do an 
inspection.
    I would like to have the city attorney, someone from the 
mayor's office and the police commission with me when I do 
that. And you. You are responsible. You are allowing somebody 
who is not being truthful to sell guns out of our community 
that kids use to kill each other. I will not tolerate it. Take 
that.
    Mr. Souder. Under congressional rules applause or boos or 
audience participation is not part of a hearing. We wanted to 
open up the hearing, but I am not going to object to the ``all 
rights'' and ``amens.'' I realize that may be cultural, but if 
you could, because we are trying to have an important 
discussion about how to tackle these issues, I would appreciate 
the audience following that rule.
    Do you have any other questions?
    Ms. Watson. One more question and this is for ATF again, 
Mr. Torres. Child Access Prevention, called CAP laws, to guns 
have been enacted in approximately 15 States. What impact have 
these laws had on reducing youth violence and illicit guns from 
being on our streets?
    Mr. Torres. As far as the State statistics I couldn't tell 
you, because each State keeps their own statistics on that. The 
Federal Government, however, did pass a law last year on having 
gun laws sold with each firearm and those statistics are 
starting to come out now and they look promising, because 
anytime you give one lock on one gun, that is a safer gun and 
that is always a good thing to have a safe gun.
    Ms. Watson. If you can tell me right here in the State of 
California the impact. I just want to know what you think would 
be the source of all the guns that our people use to kill each 
other. We just had a shooting last night, a gentleman and a 5-
year-old. Where are those guns coming from? I don't know of a 
gun manufacturer in this area. Where do the guns come from? 
What are your thoughts on that?
    Mr. Torres. There was a law passed in 2005 that prevents me 
from giving you the trace information.
    Ms. Watson. You don't have to give me the trace 
information. Off the top of your head where do you think?
    Mr. Torres. Off the top of my head from my experience the 
guns are coming from gun shows and from straw purchasers.
    Ms. Watson. Let me ask you at gun shows, at swap meets I 
understand a lot of them are sold. Are your people out there to 
monitor and to give oversight?
    Mr. Torres. We actively pursue any and all information we 
get on firearms trafficking going on, be it a gun show, be it a 
swap meet. We actively pursue those, yes.
    Ms. Watson. When you say actively pursue, if you know guns 
are being sold, or are to be sold, are you out there or do you 
wait until someone tips you off or calls you to move in? How 
does that work?
    Mr. Torres. I mean, we have priorities. As far as if we 
know a gun trafficker is working there, we get information, we 
get tipped, we get trace information, we will dedicate 
resources to that area, to that person to investigate to make 
sure that he gets arrested, or she gets arrested, and no 
firearms are hitting the street.
    Ms. Watson. Just last week Congress passed--I didn't, but 
Congress did pass out a bill to relax the requirements on gun 
shop owners to make it more difficult to sue them when their 
weapons are being used in a crime. What this bill requires is a 
showing of malicious intent to sell that gun. Now, what it 
does--it is sponsored by the NRA--it relaxes the laws relative 
to the selling of weapons.
    In the early 1970's there was a boxcar stalled on the train 
tracks filled with ammunition, filled with guns. If you want to 
destroy a community you do two things. You take drugs in there 
and you take weapons and ammunition in there. Come back in 10 
years and you will have destroyed a community and that is what 
is happening.
    I don't see enough activity on the part of the ATF in this 
area. You don't get in touch with us. We have to call you and 
then I get people coming into my office who can't answer any of 
these questions. I said, ``Why did you come?'' I haven't been 
able to talk to you directly but I would like to sit down and 
talk to you and tell you what I know about my district, what I 
see every day, what parents come and tell me about their kids 
being killed with guns and you don't talk to me so something 
has broken in terms of your responsibility over the guns. To 
say, ``We can't find anything wrong. We let this guy operate. 
We gave him his license,'' when he has violated.
    LA Times did a story on the city attorney taking money from 
one of the partners of the guy who owns the gun shop. You know, 
underneath the table some things are going on. I am not making 
accusations. I am describing what I know. ATF needs to be a 
partner with us to try to get the guns off our streets. Thank 
you, Mr. Chairman.
    Mr. Souder. Thank you. I have just a couple additional 
questions I want to pursue. Isn't it illegal to sell a gun to 
somebody who has a criminal record?
    Mr. Torres. Somebody who is prohibited and that could be a 
convicted felon. That could be illegal user of narcotics. That 
could be someone who has been dishonorably discharged from the 
military.
    Mr. Souder. Are juvenile records considered as part of 
that?
    Mr. Torres. No, usually not.
    Mr. Souder. So a juvenile at a game could continue to get a 
gun even though they have a criminal record?
    Mr. Torres. It depends how the court gave him or her that 
felony conviction. If they are a convicted felon, they cannot 
have it.
    Mr. Souder. So it depends how they chose to prosecute it 
because this kind of directly gets into the gang question 
because many juvenile records are sealed, which if they had 
been an adult would have prohibited the gun purchase. Is that 
correct?
    Mr. Torres. That is correct.
    Mr. Souder. I wanted to make sure for the record also 
because we have had discussion of some of the Hispanic and 
African American as well as Anglo gangs. My understanding from 
the time I have been here before was that some of the Asian 
gangs are among the most violent in this area. One of the 
things that was a little bit unusual, and I wonder if this is 
still correct, is that some of them are specialty gangs as 
opposed to necessarily neighborhood gangs.
    I heard of one cases where there was one that specialized 
in diamond or jewelry store robberies, that they had been hired 
in San Francisco or other places, even in other cities because 
of the expertise, much coming out of the violence of Vietnam 
era and some of the Asian violence.
    Then, most recently, in relationships with the I-5 corridor 
to British Columbia where we see this huge influx of B.C. Bud 
coming down, cocaine and guns going north to Canada, Washington 
State being a big transit zone going into the midwest, largely 
because of Vietnamese gun activity in British Columbia. Do you 
see that here? What are your comments on that for the record, 
not only on that particular type but any other type of Asian 
gangs?
    Mr. Loosle. On the Asian gangs we have worked a number of 
cases on Asian gangs as criminal organizations. The structure 
of the Asian gangs is somewhat different from those of MS-13 or 
the Bloods or the Crips, but the criminal activity they engage 
in sometimes is similar. They are engaged in some narcotic 
trafficking, gun smuggling, and home invasions obviously within 
their community.
    When you say ``specialty'' I can't give you that 
information. I don't have it with me right now, but the 
structure of the Asian gangs is very different, but we do 
target Asian gangs also. We have had a number of very 
successful cases in targeting the most notorious Asian gangs in 
this area.
    Mr. Souder. As a pattern, are they more violent, about the 
same? More guns or less guns?
    Mr. Torres. As far as the arms that the various gangs 
collect, I mean, it seems the higher caliber the better. They 
all do that across the board.
    Mr. Souder. It is not by accident that the violence in the 
1980's coming out of the Vietnam gangs is partly related to 
these kids grew up where there was violence in Vietnam and fled 
to here. It is not an accident that the Salvadoran gangs are 
particularly that way because of the conflicts in Central 
America and it got exported into here. The question is when it 
starts happening in the second generation, then you wonder what 
has happened here as opposed to the first generation coming in.
    I just wondered if you had any comments on that and where 
the next place may be. That is why the radical Islamic movement 
is of a particular concern because that is where the developing 
violence is around the world and the young people who flee that 
are likely to come in more violent than the existing gangs.
    Mr. Torres. As far as historical information, we have seen 
a pattern. Personally, I have not looked at it but I can get 
back to you on that.
    Mr. Souder. Do you and ATF have jurisdiction over IUDs? 
Would you consider that a firearm?
    Mr. Torres. Under the Gun Control Act it is a considered a 
firearm. That is correct.
    Mr. Souder. Have you seen any of this type of activity 
which we all fear on our shores?
    Mr. Torres. As far as the statistics, it is about the same 
but we are working closely with the FBI and the State and local 
agencies to address it as far as from a task force approach 
from the JTTF, etc.
    Mr. Souder. My understanding is that a lot of the pattern, 
other than the Salvadoran gangs, MS-13, is much more 
decentralized in their structures around the country, which 
makes tracking harder and some of our traditional FBI and other 
tactics in breaking them up much more difficult, particularly 
as they move into illegal narcotics.
    As we see meth labs shut down as we control precursor 
chemicals we are hearing there is a rise in that coming across 
the border. It is often protected by these Hispanic gangs that 
are very decentralized and it challenges, if it is true, our 
Federal presumption of being able to break up networks. Would 
you agree on that?
    Mr. Loosle. Yes. The Hispanic gangs, particularly MS-13, 
because of their structure are a little bit more difficult to 
track. I, myself, have spent at least 8 years living and 
working in Central America, 5 of those years were in El 
Salvador, watching how this has evolved.
    The danger for the United States and also for Mexico and 
the Central American nations is the possibility of these gangs 
being for national security reasons part of wittingly or 
unwittingly smuggling aliens of special interest into the 
United States or into their countries or becoming part of a 
disaffected political group that might hire them to conduct 
terrorist acts in their countries or also in the United States. 
They don't have a structure like the Mafia or the Cosa Nostra.
    They don't have that central pyramid because of their loose 
confederation, but they are associated with each other. In 
Central America recently we have seen where some of the cliques 
have actually gone together to commit criminal acts.
    I recently returned from El Salvador where the Department 
of Justice including ATF, DHS, and a number of other Federal 
agencies, met with and had a seminar with police officers, 
prison officials, prosecutors, individuals involved in 
prevention and rehabilitation met for 2 weeks. The seminar just 
concluded last week and many of these issues were brought up.
    Mr. Souder. Does the Federal Gang Initiative recognize the 
fact that the different gang challenges in the United States 
are fairly different in their origin and potential solution?
    Mr. Loosle. What we are trying to do, actually, is look at 
the commonalities to see what the best practices may be in both 
prevention, rehabilitation, and intervention.
    Mr. Souder. Let me try that question again. In the African 
American community, historically the gangs have risen out of 
areas of high poverty, and with radical Islamization that isn't 
necessarily true. In London they came out of middle class 
families. In Asian gangs they seem to have a little bit 
different origin and there seems to be more idealogy in some of 
the Hispanic gangs. Would you disagree with any of those 
statements?
    While there might be commonalities, that would suggest if 
income isn't there and if idealogy is inserted in, that the 
same anti-gang approaches that would be critical here in an 
African American community might be different than trying to 
tackle kids who went to Wahhabi school or education or a 
cluster of Hispanics who feel that the United States has stolen 
their territory.
    Mr. Loosle. I think the first level of prevention is the 
family and absent the family then individuals their first 
instinct is for protection and that is how many of these gang 
structures have arisen is to protect themselves from other 
gangs. It really varies as far as the level of poverty.
    Mr. Souder. Thank you.
    Do you have any additional questions?
    Ms. Watson. I just want to ask a question, Mr. Chairman, 
and this is to Mr. Loosle.
    Can you discuss the importance of Federal, State, and local 
cooperation in gang investigation?
    Mr. Loosle. Cooperation among all these agencies is 
critical and essential. Additionally, not only in intervention 
but prevention and rehabilitation. There needs to be a balance 
among all those areas because if we put all our efforts into 
intervention, that is not going to solve the problem. We need 
to have a balance for prevention and rehabilitation, but we 
need to work together, Federal, State, and local agencies, law 
enforcement, and community groups together in each of these 
areas.
    Ms. Watson. And just to followup on that one, Mr. Chairman. 
It will take me a second.
    There were efforts to put together a gang truce between 
major rival gangs. Can you tell me if that is working, if that 
is in place? And do we have the various individuals as part of 
that discussion?
    Mr. Loosle. I apologize. I don't have information on the 
gang truce. I am being told that there is no overriding or 
high-profile truce. There is nothing to prevent gangs from 
entering into truces with each other whether it be Crips, 
Bloods, MS-13, or 18th Street. At this time I am not aware of a 
truce.
    Ms. Watson. Do you know anywhere in the country where there 
have been truces established among violent gangs themselves, 
originating with themselves, or with the input of some 
organizing agency? We are going to have some witnesses that 
might be able to address this in the Los Angeles area. I was 
just wondering what you can tell us in terms of nationally.
    Mr. Loosle. I can't cite the exact instances. I know 
nationally there have been truces between gang members. There 
have also been I guess you could call a truce between law 
enforcement and gangs for having a nonviolent or staking out a 
nonviolent area. I know that in El Salvador the 18th Street and 
MS-13 have come to an agreement that they will not fight with 
each other if confronted by the police; they will fight the 
police first. In that sense, I guess you could say it is not so 
much a truce but a unified effort. I don't know of any specific 
truce. I know they are out there. They have been used and I 
believe some have had some success.
    Ms. Watson. Thank you very much to the witnesses. I yield 
back, Mr. Chairman.
    Mr. Souder. Thank you. I want to thank you both. We may 
have some followup questions. I presume that the subject is 
going to continue to expand over the next couple years. This is 
kind of the home base, as both of you said, of a lot of the 
original gang activity and the spread of the national gangs. I 
would appreciate you being responsive to those questions. Also 
thank the agents in the field for taking risks as we try to 
figure out these organizations. It is not an easy challenge and 
I thank you for it.
    I do want to add on a personal note that a number of years 
ago at multiple forums I heard a man named Leon Watkins who 
negotiated the most well known of the Blood and Crip truce in 
the 1980's and then a second truce with them and he made 
multiple presentations. Then once at an informal forum with 
major foundations, and this was when I was a staffer, 
legislators in the administration, he said that in reality in 
spite of what he had been saying publicly, one of the key 
things was one of the leaders, I forget which group, became a 
committed Christian.
    I know this isn't politically correct, but he gave his life 
to Christ and decided he was going to change. He went back to 
his gang and they negotiated an agreement. A lot of this takes 
changes of hearts and you've got to work at it. We need to do 
the law enforcement side. We need to do what we can to help in 
the communities, but a lot of this is reaching people's 
individual hearts. When we have seen these major impacts, when 
we get to the bottom of it, that tends to be there.
    I thank both of you for coming and if the next panel would 
start to come forward, we will get you seated and we will go on 
to panel two. Thank you very much.
    [Whereupon, off the record.]
    Mr. Souder. The meeting will come back to order. This panel 
now I will read each of their names. Mr. Danny Trejo, film 
actor and former gang member; Chief Ronnie Williams, Los 
Angeles Sheriff's Department; Jerald Cavitt, former gang 
member; Captain Regina Scott, patrol commanding officer, 
Southwest Division, Los Angeles Police Department; Charlotte 
Jordan, CEO, Mothers on the March; Dan Isaacs, chief operating 
officer, Los Angeles Unified School District; Eddie Jones, 
president, Los Angeles Civil Rights Association; and Rev. Dr. 
Clyde W. Oden, Jr., senior pastor at Bryant Temple AME Church, 
Board Member of the African American Summit on Violence 
Prevention.
    For those of you who didn't hear, as an oversight committee 
we require each witness to be sworn in, so if you would each 
stand now that you are all seated, raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. We thank each of you for taking 
time from your schedule to participate in this hearing and we 
are looking forward to your testimony. We'll start with Mr. 
Trejo. Each of you need to pull the microphone so the 
stenographer can get all the words and so that people in the 
back can hear as well.

 STATEMENTS OF DANNY TREJO, FILM ACTOR AND FORMER GANG MEMBER; 
CHIEF RONNIE WILLIAMS, LOS ANGELES SHERIFF'S DEPARTMENT; JERALD 
   CAVITT, FORMER GANG MEMBER; CAPTAIN REGINA SCOTT, PATROL 
  COMMANDING OFFICER, SOUTHWEST DIVISION, LOS ANGELES POLICE 
 DEPARTMENT; CHARLOTTE JORDAN, CEO, MOTHERS ON THE MARCH; DAN 
  ISAACS, CHIEF OPERATING OFFICER, LOS ANGELES UNIFIED SCHOOL 
  DISTRICT; EDDIE JONES, PRESIDENT, LOS ANGELES CIVIL RIGHTS 
ASSOCIATION; AND REV. DR. CLYDE W. ODEN, JR., SENIOR PASTOR AT 
BRYANT TEMPLE AME CHURCH, BOARD MEMBER OF THE AFRICAN AMERICAN 
                 SUMMIT ON VIOLENCE PREVENTION

                    STATEMENT OF DANNY TREJO

    Mr. Trejo. Good morning distinguished Members of Congress, 
committee, and everybody else who is here. My name is Danny 
Trejo. I am an actor as well as Director of Western Pacific 
Rehab in Glendale. We detoxify drug addicts. I was born in 
Maywood, raised in Temple Street, Echo Park, Lincoln Heights, 
and Pacoima, California.
    I became involved in drugs and criminal activities and 
gangs at a very early age landing me in juvenile hall, forestry 
camp, and Youth Authority. That is the prep school for the 
State penitentiary.
    After a small stint in Youth Authority I graduated and 
ended up in the State penitentiary. I attended almost every 
single penitentiary in the State of California that was in 
operation during my incarceration including Gino, Soledad, San 
Quentin, Folsom, Vacaville, Tracy, Susanville, and Sierra. At 
this time there were different types of rehabilitation for 
inmates such as school, self-help groups, numerous athletic 
activities, group counseling, and one-on-one counseling.
    You could go to Alcoholics Anonymous, meetings, and attend 
church services. I myself helped to start one of the first NA 
meetings in Soledad. My title was Inmate Social Catalyst. I 
would help counsel new inmates about the pitfalls that they 
might encounter living life on the inside. Now, due to prison 
reform, we have limited resources in the struggle to help 
rehabilitate inmates. Our prisons have become factories that 
turn young men into animals, instead of what they suggest by 
their name, ``correctional facilities.''
    Our prison guards make more money than our teachers. Yet, 
the California Department of Correction has a budget of over 
$7.4 billion. How many prison facilities do we have in 
California? Fifty-four youth and adult facilities. We send our 
youth to prison and youth authorities. When they come out they 
are hardcore gang members running the streets and calling the 
shots.
    They no longer have to be jumped into the gang. They are 
the gang. We would like to form a committee of ex-offenders 
with law enforcement who have solid reputations who are 
respected in both prisons and in communities. Believe me, we do 
have people in law enforcement that are well respected in both 
prisons and the community.
    In order to provide an alternative lifestyle not only to 
those who have yet to encounter the system but those who are 
already incarcerated in hopes that we might veer off the path 
of destruction that has kept so many of them in prison for 
their entire lives. These ex-offenders are viewed as the Ph.D.s 
when it comes to gang subculture. They have lived it, thrived 
in it, survived it, and are now productive members of society 
trying to save our youth.
    One of our first priorities would be to secure the safety 
of our students in school, which has long been a breeding 
ground for both gang and racial tension. For whatever reason, 
thank God, Mayor Villagosa has taken the bull by the horns and 
is now going to make the Los Angeles City School Board 
directors accountable to those they serve. Maybe some day 
instead of saying, ``Where you from?'' students will greet each 
other with, ``How are you doing?''
    When law enforcement and community can start working 
together, we can come to a positive solution that will save our 
youth and will help prevent cases like Manuel Rilrahas who at 
the time of his arrest was an 18-year-old skateboarder and a 
non-gang member who is at present facing murder charges that he 
did not commit.
    Any ex-offender with any type of street knowledge could 
have worked with the police and would have come to the 
conclusion together that this young man, now one hung jury 
later, at 20 years old his second trial starts tomorrow. Let's 
start looking for justice instead of a DA conviction rate and 
filling our prisons with young people. I am here with my 
associates to extend our hand in order to not only work with 
you but also let you use our expertise to help youth in our 
communities.
    Councilwoman Watson, I believe that I first worked with you 
awhile back with Project Heavy and the Narcotics Prevention 
Project. I am glad to see that you are still in the fight 
because we need more people like you championing our cause. I 
was listening to the dialog and our Police Department of Los 
Angeles, our Sheriff's Department, they are doing a great job 
of taking the guns off the street.
    Somebody please tell me how are those guns getting here? We 
don't have any gun factories in Los Angeles I don't think. I 
don't think in any community. I know they have one in Pacoima. 
I know there is not one in Venice. I know there is not one in 
Compton. Please, somebody tell me how can our police 
department, how can our sheriff's department keep getting AK-
47s off the street if they keep coming?
    I have never seen a gun show run by African American or 
Mexican American people ever. We have gun shows in Utah. We 
have gun shows in Montana. Somewhere along the line we had 
better start putting barbed wire around these gun shows instead 
of building more prisons in California. God bless you all. 
Thank you very, very much.
    Mr. Souder. Thank you.
    Mr. Williams.

               STATEMENT OF CHIEF RONNIE WILLIAMS

    Mr. Williams. Good morning. I thank the esteemed panel for 
inviting the Los Angeles County Sheriff's Department. I am here 
on behalf of Sheriff Lee Baca. I will tell you I am a native of 
Los Angeles, Watts, California, I like to say. I was born and 
raised here. This, too, is personal for me as well as business. 
I have had two nephews killed in gang violence that weren't 
gang members. I also have a nephew in Lancaster State Prison 
for being involved in a ride-by shooting, so I have come full 
circle on all ends of the spectrum.
    I would like to start off by making a statement by William 
Edward Burkhardt Du Bois who said in his book, ``The Souls of 
Black Folk 1903,'' that ``The chief problem in any community 
cursed with crime is not punishment of the criminals but the 
preventing of the young from being trained to crime.'' Very 
prophetic 1903 that it refers to what we are experiencing in 
2006.
    The Los Angeles County Sheriff's Department believes that 
our youth are the future of our county. It takes an active role 
in providing programs to assist our youth with obtaining a 
successful future.
    In 1985, the Sheriff's Youth Foundation was created based 
upon the belief that crime prevention programs focusing on the 
youth are key to developing safer communities. The foundation 
works with young people throughout the county for tools of 
success, and empowers them to utilize these tools while having 
some enjoyment and fun.
    The programs exist to offer LA County youth a safe and 
supportive environment where they can interact with positive 
role models, interact with law enforcement officers. They 
receive life guidance, factual information, educational 
tutoring, the opportunity to participate in after-school 
activities, and esteem-building exercises.
    The Sheriff's Department believes overall success in 
combatting youth and gang violence resides in a three-pronged 
approach: prevention, intervention, and suppression. Prevention 
by education of our youth before they make the choice to become 
involved in criminal activity. The Sheriff has several programs 
under prevention. A couple of them, the Youth Activities 
Leagues, called YALs. Of the 21 Sheriff's Stations throughout 
the county, more than half offer YAL activities. They are 
viable alternatives to drug involvement and gang membership. 
More than 20,000 children and teenagers participate in this 
program each year.
    Another program, Success Through Awareness and Resistance, 
STAR, discusses drug, gang, and violence prevention. Education 
classes are co-taught throughout Los Angeles County by 
specially trained Sheriff's deputies assigned to the unit. The 
STAR program is at work in 370 schools within 50 school 
districts and 30 contract cities and the unincorporated areas. 
The program reaches more than 100,000 youth a year.
    In addition to these programs, I have several programs 
involved under the focus of intervention. First and foremost is 
the VIDA program, Vital Instruction Direction Alternative, run 
by COPS Bureau, Community Oriented Policing Service. VIDA is a 
16-week community assisted re-directional program facilitated 
by the LA County Sheriff's Department that focuses on 
addressing juvenile delinquency issues related to gang 
involvement.
    Youth who have been identified as being involved in a gang 
lifestyle are referred to the VIDA program through the use of 
VIDA referral forms. Referrals to the program are made by 
parents, the court, other law enforcement agencies, social 
services, school districts, and religious institutions. 
Currently we have two VIDA sites, one in Antelope Valley and 
one in Century. We just started another one in Century station 
last month.
    Another program is in operation through our Operation Safe 
Streets Gang Bureau, a better LA program. OSS personnel are 
part of a collaborative effort with the Pacific Institute. It 
provides transformational education and cognitive thinking 
skills. The institute made a commitment to assist South Los 
Angeles in reducing gang violence.
    It has the support of USC football coach Pete Carroll. 
There is a custody component attached to the program for adult 
offenders called New Direction to Success and a youth program 
called Pathways to Excellence. In all, the Sheriff's Department 
has over 38 programs designed to provide for our youth.
    Last is suppression and suppression, is what police 
departments do. We direct our resources into reducing crime and 
increasing the quality of life in areas. For this I have a 
small example. The Sheriff's Department tasked me with having a 
task force in the city of Compton. This task force has been 
involved in Compton since January, but I am going to take a 
small slice of this for you.
    Since August 6, 2006, we have made 158 felony arrests. We 
have recovered 170 guns. Distinguished panel, that is about 20 
guns a week. These are the guns. These are weapons of war. 
These are weapons that my son uses who is in the U.S. Army. 
Twenty guns a week in a 10 square mile community.
    As Mr. Trejo said, I don't know any manufacturer of guns in 
LA County. When you look at 10 square miles and 170 guns since 
August, imagine another 10 square miles some place else. We 
don't know how to stop this. We can have all the programs we 
want and in law enforcement we deal with statistics and anytime 
we deem ourself successful when we have a lowering of crime or 
violence in any community that we police, we look at our 
statistics and we can enjoy that for a minute, but these 
statistics don't matter to victims of violent crime. These 
stats don't matter to survivors of violent crimes. It doesn't 
matter to them. For us one shooting, one murder is one too 
many.
    Congresswoman Watson referred to a homicide last night in 
the city of Compton. A 10-year-old boy, and a male, African 
American adult was killed virtually for no reason. That is the 
life in communities. That is what happens in these communities 
that has these guns. As long as we have a proliferation of 
firearms, we are going to have an issue.
    Also, I would be remiss if I didn't tell you gangs have 
crossed over. Not just gang-on-gang crimes but in the hate 
crimes, black-on-brown. Gang crime is in the upsurge. I had 
five black-on-brown shootings in the past week in my division. 
I don't even want to ask my friends in LAPD how many they've 
had or Englewood Police Department has had. Just five in the 
last week, so they have crossed over not just in gang-on-gang 
robbery but into hate crimes and it is impacting the 
communities in LA County. That needs to be dealt with.
    We also, in LA County, have a thriving clergy council and 
some of the people in the audience. Chairman Souder, I didn't 
bring them but they are out here in the audience, part of our 
burgeoning clergy council of African American and Latino 
pastors that want this issue addressed. They met 2 weeks ago at 
USC and they are about to memorialize a document on how they 
want that addressed. It is a serious problem that needs to be 
tended to. Thank you.
    Mr. Souder. Thank you.
    Mr. Cavitt.
    [The prepared statement of Mr. Baca follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.016
    
    [GRAPHIC] [TIFF OMITTED] T5334.017
    
    [GRAPHIC] [TIFF OMITTED] T5334.018
    
    [GRAPHIC] [TIFF OMITTED] T5334.019
    
    [GRAPHIC] [TIFF OMITTED] T5334.020
    
    [GRAPHIC] [TIFF OMITTED] T5334.021
    
    [GRAPHIC] [TIFF OMITTED] T5334.022
    
    [GRAPHIC] [TIFF OMITTED] T5334.023
    
    [GRAPHIC] [TIFF OMITTED] T5334.024
    
                   STATEMENT OF JERALD CAVITT

    Mr. Cavitt. Yes. Good morning. My name is Jerald Cavitt. I 
thank everybody for allowing us here on this conversation that 
has to be dealt with. Too many heads being turned. Maybe 
happening in the wrong areas and wrong neighborhoods makes it 
all right. These guns don't pop up in Beverly Hills like this, 
Bel Aire. For some reason we can shake a gun trail in South 
Central LA, this gun trail that leaves a trail of bodies every 
day.
    My name is Jerald Cavitt and I was born here. I got 
involved in gangs at the age of 15 in the early 1970's, maybe 
1970. Went to prison and came back after doing a nice choke in 
prison. I knew that something different had to happen. With 
that I became involved in this work effort. With intervention 
and prevention we save lives every day.
    Our kids are the next gang members. We save them first but 
we must put the fires out along the way. We put fires out every 
day. Every day there is a trail of bodies. Just in the 
surrounding city is the worst but it is across the country, 
almost across the world. We have Bloods and Crips and 18th 
Streets, Matavillas all over.
    I want to say a couple of things before I go on here. I 
work full-time trying to return and restore peace to the city. 
Today I represent the hardcore gang intervention specialists 
and the work we do to handle gang violence. For 2 years I have 
worked for Unity T.W.O., a gang prevention and hardcore gang 
intervention group.
    Unity T.W.O. is part of the Unity Collaborative, which is 
made up of the following groups: Unity One, Unity T.W.O., Unity 
Three, Venice 2000, JUSH, Unity Two Chapter Two, and Toberman 
House. We work with all the other gang intervention agencies 
that work this city. Everybody does a lot of work.
    We work under the LA Bridges program. We've got a collab 
leadership that we help structure from a level above the work 
that is being done.
    We have Tony Massengale, Bill Martinez and Howard Uller 
that helps us do this. We work out of South Central or wherever 
we must go. Sometimes we must tell the parents that the kids 
won't make it home today.
    I work in schools. The high schools are not the worst. The 
middle schools carry weapons. We keep hearing weapons here on 
these panels that Congresswoman Watson brought up. We keep 
hearing weapons of gang members at high school level, middle 
school level with guns. Is that too easily accessible? Is it 
overflow? Is something wrong with that picture here and abroad 
now that we can't seem to do anything about that just goes on 
and on and on and on?
    We also have a committee called the Cease Fire Committee, 
which was formed from the best of the Unity Collab. We formed 
this committee of a non-profit organization and we work 
together to stop gang violence and promote positive social 
change. Our primary mission is to obtain a cease-fire and 
maintain a cease-fire between rival urban gangs.
    I am proud to say that I have founded Unity Two Chapter Two 
as a part of the collab which will provide assistance and peace 
among the Crips and the Bloods. The plan is to establish a 
nationwide communication line to talk to gang members all over 
the world that are interested in sharing their ideas for 
promoting peace all over the world.
    This gang violence started here in Los Angeles and we of 
the Collab and Cease Fire Committee intend to fix it here. With 
these issues resolved locally, we can spread our actions across 
the world to stop the violence.
    Mr. Souder. Mr. Cavitt, if you could start to summarize. 
You are over your time limit.
    Mr. Cavitt. OK.
    Mr. Souder. You can summarize it.
    Mr. Cavitt. OK. Right away. We had a breakfast recently and 
we had a breakfast over 18 rival gangs that shoot at each other 
every day, that kill each other every day. We did mediation 
work and last week we got them all to a table at a breakfast. 
They came in the name of wanting to hear peace. Some of them 
are just tired of what is going on. Some of them want the 
better for the communities at large. If we don't stop this now, 
then we have no future later.
    With a combined effort with suppression and gang 
intervention, and not only suppression being the only ones with 
100 percent of funding and gang intervention 25 percent of the 
funding that sounds like is just enough to fail. We have no 
intentions on failing and we will not fail. We will work 
closely with law enforcement. Law enforcement in the 
communities can vouch for the things that we do.
    We deal hand in hand with activities and the peacemaking 
process. Right here with local law enforcement, LAPD and the 
Sheriff, we can and will bring this problem to an end with 
resources that can be given to us because we fight our war in 
Iraq every day and we don't speak of the war that is going on 
right here in South Central LA every day. Thank you very much 
for your time.
    Mr. Souder. Ms. Scott.
    [The prepared statement of Mr. Cavitt follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.025
    
    [GRAPHIC] [TIFF OMITTED] T5334.026
    
    [GRAPHIC] [TIFF OMITTED] T5334.027
    
               STATEMENT OF CAPTAIN REGINA SCOTT

    Ms. Scott. Good morning. I appreciate the opportunity to 
appear before you today and speak on behalf of the Los Angeles 
Police Department about this very important issue of combating 
youth violence. The LAPD shares the committee's concerns about 
this troubling problem and we hope today by discussing these 
issues that we will develop some effective solutions that will 
have a lasting impact on the problem.
    For LAPD gang violence is the single most important problem 
that we are facing in this city. The problem of crime and 
violence among our youth are directly connected to the 
affiliation, association, influence, and direct involvement of 
gang activity. For us to have any meaningful or lasting impact 
on combating youth violence we have to find a way to commit our 
collective resources to significantly reduce, if not eradicate, 
gang violence and the negative influence that gang members have 
on our youth.
    To be effective, these programs have to include public 
safety, which we are willing to be there for, but you can't do 
it with just public safety if you don't have education and you 
don't grab those families, and you don't provide them with 
employment in the intercity. In the intercity there is 
practically no safe haven for our youth.
    I mean, the police officers get there and they tell them, 
``Hey, you've got to leave,'' but where do these kids go? Every 
part of the city is infested with some type of gang activity. 
Our schools are not safe. Our parks are not safe. Our 
residential communities are not safe. Then we even have to 
question that some of these kids are not even safe in their own 
home and we understand that.
    I am going to give you some data here that will help you 
shed a light on the problem that we face but then the 
overwhelming thing that LAPD has to face every day. In just 
LA's intercity we have 700 violent gangs that have been 
documented and we estimate about 60,000, and this is 60,000 
that we have documented, gang members are in the city of Los 
Angeles. If you will include the associates, the affiliates, 
the gang wannabes, you can almost quadruple that number.
    Now, you take that number and you realize in all of LAPD we 
have a little bit over 300 gang officers to deal with that 
problem. In just my area alone we have about 6,000 gang members 
that are documented. If you take that I employ about 24 gang 
officers to deal with that problem, we are putting a band-aid 
on a sore that is cancer and it is not working and we 
understand that and we recognize that.
    If you look at it, approximately year to date right now 
21,472 juveniles have been arrested for various criminal 
offenses. Year to date we have had about 4,000 drive-by 
shootings and of those 4,000, 1,600 victims have been actually 
shot in the head. Year to date we have lost 356 souls to 
homicide and of those 356, 167 of them are gang related. That 
is about 50 percent of all homicides are gang related.
    Just in the South Los Angeles area 72 of them are 
accredited to us.
    It talks about parolees and what Mr. Trejo talked about. 
There are 35,000 parolees in the city. That's 35,000 people 
that went to jail and are out on parole for some criminal 
event. About 50 percent of those are just in the intercity of 
Los Angeles. There are 3,400, approximately, juveniles that are 
in juvenile hall or in California youth camp. As he said, that 
is preparatory for prison.
    We have about 20,000 juveniles who are currently right now 
being supervised by the Los Angeles County Probation 
Department. What we realize here today as LAPD is we cannot 
arrest our way out of this problem. We look at that and LAPD 
along with the Sheriff we do have youth programs that help to 
prevent that. We have our LAPD Explorers. We have Safe Passage 
in our schools where we collaborate with the community.
    We have an LAPD Jeopardy but we only have 404 youth in that 
program and of those 404 youth, only eight of them are in the 
south area. We have the Los Angeles Police Activities, PAL. We 
have about 1,500 kids in that. If you look at that, in South 
Los Angeles we have a hard time getting the kids in the small 
amount of programs that we have. We have initiatives in safer 
cities.
    We realize Baldwin Village in that area was just a safe 
haven for crime and we went in there with an initiative of safe 
haven looking at other entities or other initiatives throughout 
the city and we put in resources. We were able to fix that 
problem. I am proud to say, and also sad to say, that since we 
went in there since this year we had not had a murder in 
Baldwin Village until a couple of weeks ago when we lost 
Kaitlyn, the 3-year-old who was shot in a gang-related type 
incident.
    We have a collaborative which we are really proud to say we 
are working with the Urban League to try to hit those four 
elements that I talked about: public safety, education, 
housing, and employment with the Urban League. We will be 
bringing that out shortly.
    Gang intervention. I sit here today at the table with 
Jerald and one of the things I have to say about Operation 
South Bureau, we realize that we can't do this by ourselves. 
What we have done is we have a coordinated effort to ensure 
that the officers assigned to our gang units work closely with 
the school police and our gang intervention groups to help 
reduce involvement in juvenile gangs.
    Now, I am sitting here and I am thinking if you had asked 
me 5 years ago when I was in law enforcement would we ever work 
with gang intervention, ex-gang members? I would tell you no 
way. We have the solution. We will just put them in jail. But 
today I am proud to say that one of our success stories is the 
King Day Parade. We went to that King Day Parade with red and 
blue, seas of red and blue, and we had no incidents. The reason 
why is because we could refer to our gang intervention and they 
handled that problem.
    The collaborative that we are trying to build----
    Mr. Souder. Ms. Scott, you need to come to a summary here, 
too. We are going to put your full statements in the record and 
any additional materials.
    Ms. Scott. I just want to mention the gang intervention 
collaboratives because although they are not snitches, they 
don't come to us and tell us who is doing who, but they come to 
us and say, ``Better look at the 40's. Look at the 30's. There 
may be a problem, Captain Scott.'' We say, ``Help us.'' They go 
out underground, undercover, and they bring them together and 
they help. That is something that we couldn't reach. We could 
tell them all day long to stop shooting and killing each other, 
but they need to reach out amongst themselves to do that.
    I just want to recognize Unity One and Amer-I-Can, the Los 
Angeles Civil Rights Association, A Place Called Home, 
Community Build-A-Safe-Passage Program, and the Unity 
Collaborative--2nd Call, Unity One, Two, and Three--initiatives 
on that. Thank you.
    Mr. Souder. Thank you for your testimony.
    I want to say to each of the witnesses, too, that I have 
been giving just a little over. I am trying to keep it roughly 
even. I know and appreciate your passion and probably each of 
you could do a couple hours here. We have a time agreement to 
adjourn at 12:30 and I know Mr. Isaac said he has a 12:15 
appointment but that is why I am trying to keep it moving. I 
apologize because I know you all are very passionate. We want 
to make sure everything gets in the record.
    Ms. Jordan.
    [The prepared statement of Ms. Scott follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.028
    
    [GRAPHIC] [TIFF OMITTED] T5334.029
    
    [GRAPHIC] [TIFF OMITTED] T5334.030
    
    [GRAPHIC] [TIFF OMITTED] T5334.031
    
    [GRAPHIC] [TIFF OMITTED] T5334.032
    
                 STATEMENT OF CHARLOTTE JORDAN

    Ms. Jordan. Good morning. Thank you for inviting us to this 
very important issue. My name is Charlotte Austin Jordan. I am 
the founder of Mothers on the March and Save our Future. I can 
directly tell you what violence will do to you. I had a 13-
year-old daughter, Jamee Finney. In 1988 she was shot 15 times. 
Fifteen times. My son in 1996 was shot by a 41-year-old gang 
member.
    My family, my immediate family has lost 14 children under 
the age of 21. That is one family. One grandmother. I was put 
in this fight not by choice. I was forced in it. I have been 
out here for 18 years or better. Mothers are part of the 
solution. We live it, we think it, we sleep it, we eat it. We 
sit on a daily basis trying to figure out what happened to our 
child, how did this happen, how could it happen, how did we 
allow it to happen, and we come out with real solutions.
    Los Angeles Police Department recognized the importance of 
mothers at this table. I am going to say one thing. Every last 
one of us in here have one thing in common. We have a mother. 
Our mothers are important in this battle. They can unite. I 
have been myself in the presence through my charter school in 
front of a 17-year-old young man trying to shoot another one. 
Because I was in his face and begging him not to shoot that 
gun, he was trying to shoot around me saying, ``Ma'am, please 
move.'' He wanted to shoot that child, but because I was there 
he gave me enough respect. You need to help us. These young men 
at the table, these organizations, it's not going to come from 
your FBI. Like law enforcement said, they can't do it 
themselves. It is going to take the community.
    It is going to take mothers who have these children and in 
Los Angeles it is not uncommon to have a mother to have a child 
in prison for murder and one in the graveyard, so we know from 
both ends. When you are looking to find out about a bullet 
wound, how does it feel to be shot, you don't go and ask a 
person how does it feel who has been stabbed. We can tell you. 
We can tell you from just sitting and thinking, working with 
the collaboratives.
    We build the collaborative. Eighteen years there has been 
programs that came in, got funded, walked out the door. Guess 
what? Project Cry No More, Mothers on the March, Stevies, 
Justice for Murdered Children, Drive-by Agony have been here. 
We are not going away. For you guys today you go home and you 
forget about this. For me tonight I go home and pray that I 
don't dream about my children. I had a birthday just a few 
weeks ago and I was sad. I should have been celebrating because 
so many don't make it but I wanted to see my children.
    I wanted to see my children. But nothing can stop us. These 
mothers are here. We are asking whatever we can do. We get 
respect. We get the ear of those children. We get the ear of 
our husbands. We need your ear. We need your help. Funding is 
needed. Eighteen years and no one has funded us. Guess what? We 
are still here and we're not going. Thank you.
    Mr. Souder. Thank you.
    Mr. Isaacs.
    [The prepared statement of Ms. Jordan follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.033
    
    [GRAPHIC] [TIFF OMITTED] T5334.034
    
    [GRAPHIC] [TIFF OMITTED] T5334.035
    
    [GRAPHIC] [TIFF OMITTED] T5334.036
    
    [GRAPHIC] [TIFF OMITTED] T5334.037
    
    [GRAPHIC] [TIFF OMITTED] T5334.038
    
                    STATEMENT OF DAN ISAACS

    Mr. Isaacs. Thank you, Chairman Souder, Congresswoman 
Watson. I would be remiss if I didn't express our appreciation 
for the years and actual decades of support that Congresswoman 
Watson has provided our school system.
    I am a graduate of LA Unified. So is my wife and so are my 
two kids. We believe very strongly in public education. Los 
Angeles Unified School District has many initiatives in place 
that address the issue of safety on our campuses. Rather than 
focusing on youth violence, we commit ourselves to ensuring 
that our campuses remain safe havens for our students and 
staff.
    For example, in the city of Los Angeles in 2004 the primary 
crime rate per 1,000 was 36.4 occurrences, whereas within the 
LAUSD the crime rate was 3.3 occurrences per 1,000 students and 
employees. Our schools are far safer than any community in 
which they are located.
    LAUSD has its own School Police Department made up of over 
600 sworn and civilian personnel including in excess of 300 
police officers. During the past year the department responded 
to 62,356 calls for service; issued 30,000 plus parking and 
traffic citations around schools impacting traffic safety; 
filed over 13,000 criminal/arrest reports related to students 
or staff from LAUSD. We share all of these reports with our 
police department, LAPD, as well as the Sheriffs and other 
neighboring city police agencies.
    Thirteen hundred crimes were investigated against students 
and staff. We obtained $468,000 in restitution judgments; 
coordinated and facilitated 2,000 students obtaining clothing 
and supplies at Operation School Bell; mentored almost 1,500 
students in the Police Activities League and the Junior Police 
Academy Programs; developed and implemented and maintained safe 
school collaborative partnerships; successfully managed and 
resolved several major campus demonstrations and protests 
involving thousands of student without serious injury.
    The District is unique in the establishment of a Youth 
Relations and Crime Prevention Unit. This unit does not provide 
security services, per se; yet contributes dramatically to 
maintaining an environment conducive to learning. It is 
comprised of 16 Youth Relations Assistants plus one 
Coordinator. The staff members are utilized at schools 
throughout the city based on need.
    Their goals are to promote good human relations and 
positive intergroup activities between students. They work 
closely with the city and county Human Relations Commissions, 
Department of Justice, s well as the Probation Department. 
Youth Relations Assistants have developed an exemplary human 
relations program known as HEART, Human Efforts at Relating 
Together.
    Another unit which focuses on safety is the Crisis 
Counseling and Intervention Unit. It has several proactive 
initiatives as well as being galvanized when there is a 
traumatic event which impacts our schools. Its main functions 
are to create and execute the District-wide Crisis Team 
training, conduct threat assessment training for District staff 
members, and provide crisis intervention training to all of our 
local districts and, in turn, their staff.
    Some of our key safety initiatives over the past 2 years 
include $9.3 million which our superintendent and our board 
authorized to increase the number of campus aide positions to 
provide supervision on our secondary campuses from before 
school until after the end of the school day. These aides 
receive 24 hours of training from our own school police 
department.
    Doubled the Youth Relations and Crime Prevention staff 
which I referenced earlier. We have initiated a collaborative 
safety working group composed of representatives from LAPD, our 
own school district, City Attorney, State Attorney General, 
Probation Department, Housing Authority, MTA, LA Mayor's 
office, County Office of Education and others which have 
undertaken a number of tasks in a collaborative fashion to make 
our schools safer.
    For example, 10 school mapping, assessment and action plan 
based upon school community crime data so we can determine 
where it is safe and where it is unsafe both within the school 
community and on the way to school and on the way home from 
school.
    Moving of MTA bus stops that are heavily utilized by 
students to more secure locations nearer to the school sites. 
Collaborative efforts between the city, county and district to 
address specific school safety measures such as designating all 
schools as Safe School Zones under Penal Code 626 where our 
city attorney has enhanced penalties if a crime is committed 
within 1,000 feet of any of our school sites.
    All of our LAUSD crime reports are shared with LAPD and 
other police agencies. We have an emphasis on the use of 
portable metal detectors at secondary school sites and renewed 
training and distribution of a CD to help reinforce the 
training at the school site. We have requested our principals 
to meet with students in their classrooms to address the values 
of diversity, racial tolerance, multi-ethnic sensitivity and 
the means to settle disputes in a nonviolent fashion.
    We have installed additional safety enhancements at key 
schools such as security fencing, dense shrubbery, surveillance 
cameras, and an increase of night lighting. We have a District 
Parent Handbook which is issued to every parent and student in 
all of the languages spoken within the LAUSD. I have a sample 
here for the committee if they wish.
    Fifty-eight of our secondary schools have a probation 
officer assigned to the school sites. We have a large number of 
Violence Prevention/Human Relations Programs that are currently 
in place at our school sites. Let me just mention a few. We 
have a Second Step Program which is a K through 8 violence 
prevention curriculum. We have Youth Relations HEART Program, 
which I mentioned earlier. We have LA Bridges. We have a 
program with Rampart Division of the LAPD Middle School 
Intervention Project at selected middle schools. We have Youth 
Lead gang intervention program at selected middle schools. We 
participate in the Los Angeles County Interagency Gang Task 
Force.
    This year we have initiated a priority staffing program to 
ensure that schools with the greatest need have fully 
credentialed teachers and all positions are filled including a 
judicial stable substitute force at each of these schools. We 
have a focus on selected high and middle schools to address 
immediate facilities and staffing issues.
    Let me just close, if I may, by quoting some statistics 
which reflect a decrease in crime from the 2004/2005 school to 
the most recent school year that has closed, 2005/2006. We have 
a decrease of assaults with a deadly weapon in excess of 11 
percent; decrease in batteries by almost 5 percent; decrease in 
homicides by 75 percent; decreased bomb threats almost 38 
percent; decreased robberies by 20 percent; decreased sex 
offenses by almost 22 percent; decreased criminal threats by 16 
percent; decreased threats against school employees by 42 
percent; decreased arsons a little over 6 percent; decreased 
burglaries by 20 percent; decreased thefts by 25 percent; and, 
decreased incidents of vandalism by almost 6 percent.
    Our opinion is that it is critical to reduce the plethora 
of weapons that are found in this community and create an 
environment that is much more difficult for our students to act 
as weapons. Obviously we are looking to all of our 
collaborative agencies with whom we work to enhance our safe 
passages and our safe quarters to and from school. Thank you 
very much.
    Mr. Souder. Thank you.
    Now Mr. Eddie Jones.
    [The prepared statement of Mr. Isaacs follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.039
    
    [GRAPHIC] [TIFF OMITTED] T5334.040
    
    [GRAPHIC] [TIFF OMITTED] T5334.041
    
    [GRAPHIC] [TIFF OMITTED] T5334.042
    
    [GRAPHIC] [TIFF OMITTED] T5334.043
    
    [GRAPHIC] [TIFF OMITTED] T5334.044
    
                    STATEMENT OF EDDIE JONES

    Mr. Jones. My name is Eddie Jones, President of the Los 
Angeles Civil Rights Association. We have a bad cancer in our 
community and we are trying to find ways to cure this cancer. 
This cancer is shooting, killing, stabbing, beating, 
harassment--physical and verbal--and is very, very heated in 
South Central Los Angeles. I am hoping and praying each day 
that Congress will maybe look at a program that I have been 
looking at that used to be called the Team Post a long time 
ago. It was a great after-school program for kids.
    I was a product of the Team Post. Rather than reinvent the 
wheel, I thought about calling it the Basic Training Center for 
Life Skills for Youth. In this building, that I'm sure the 
Government has funds to fund, you put a classroom environment 
which has a library, law library, medical library, whatever 
type of books these young people want to read. It has a 
theater, it has a basketball court, pool table.
    Then on the other side it has the basic training side just 
like they have in the military. You have the tires and you have 
the wall with the ropes. You have all the exercise apparatuses 
and everything for the kids to learn. You have computers and 
technology so they can advance their minds and maybe even a 
media center inside the Basic Training Center for Life Skills 
for Youth. I think it would be uplifting, motivating.
    It would give the kids dignity. It would give them self-
worth. Not only that, it will teach them a lot about respect 
and honor. A lot of our older people in the community are 
afraid to walk to the store. They are afraid to walk their dogs 
at the park. They are afraid to walk down the street after a 
certain hour. That is not the way it should be. It should be 
that we all should be able to walk and talk and share with one 
another in our community.
    No matter if you live on this side of the street or the 
other side of the street, we all have something in common; we 
are human beings. When we wake up in the morning we have to 
wash our face and brush our teeth all the same, but we can't do 
it if we have to walk outside and be worried about, ``Where are 
you from? From city are you from?'' It is intimidating to be 
asked a question, ``Where are you from?''
    A lot of kids want to go to school, but a lot are afraid to 
go to school because they don't want to be asked that question. 
A lot of parents are so afraid with all these school shootings 
and all these shootings in the community. I can't name alone 
how many candlelight vigils I have went to myself and other 
organizations.
    Recently here with the 3-year-old myself along with the 
LAPD and all the other organizations, Unity One, Ministry Tony, 
Herb Wesson. Everybody was there at the press conference. I 
wish that would have been a press conference for the Basic 
Training Center for Life Skills, not a press conference for a 
3-year-old that was shot and a father that was laying there 
almost dead and the doctors don't want to tell him that his 
daughter is dead because that might kill him just finding out 
that his daughter is dead. How terrible is that?
    The four young boys that were shot on Central with AK-47s 
in front of their house out there just playing. How in the 
world does an AK-47, and I mean they have taken a lot of them 
off of our streets, 9 millimeters, 380's, Desert Eagles, 
Glocks, Glock 17, Glock 18, Glock 19. All these weapons are on 
our streets and they have lots of ammo.
    This botox store, which I had a privilege to work with 
Congresswoman Watson on, this botox store is a serious 
situation. If something goes down in our community or if the 
wrong people get in there and get those guns out of there and 
they are just sitting there and, trust me, these G's, like back 
in the day they called them G Men, that was the FBI, but these 
G Men are gangsters. They know what they are doing.
    They know how to get those guns. If they really want to get 
them, they shouldn't be in South Central Los Angeles because if 
they were in Beverly Hills or in the Valley or anywhere like 
that, the people would fight and that gangster would have been 
gone a long time ago.
    We have a very, very serious fight here. We can't do it by 
ourselves. I thank Congresswoman Watson because she is putting 
her heart, her life, her soul into this fight to stop this gang 
problem that is plaguing mothers, fathers, sisters, brothers, 
aunts, uncles, grandparents, and the entire community.
    Today I leave with you this. On behalf of the Los Angeles 
Civil Rights Association I want to thank Honorable Diane Watson 
and other members of the congressional committee for holding 
hearings on the crucial life and death issue of gangs and gun 
violence in our inner cities. This is a deeply troubling issue 
that I have devoted my time and energy to for the past 5 years.
    I just want to say in closing if you think about this Basic 
Training Life Center for kids, for young people, when they get 
out of school, instead of seeing them hanging on the corner and 
throwing up signs to each other because I can't tell you how 
many shootings I have been to myself, how many funerals I have 
went to. I didn't know the kids but I felt like they were mine 
because each one teach one. It takes a village to raise a 
child. I get phone calls at 3 in the morning. I cry like a 
baby.
    I thank God for Skip Johnson. Where are you, Skip? He is 
the Gang Intervention, Unity One, and he keeps me up on what is 
going on in the community along with Unity Two and other 
organizations that are out here fighting this problem. We 
cannot do it by ourselves. We need the Government. We need the 
President of the United States to allow funds to come in for us 
to build after-school programs that will help these kids stay 
alive. Thank you very much.
    Mr. Souder. Our next witness is Rev. Oden. Thank you very 
much.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.045
    
              STATEMENT OF REV. DR. CLYDE W. ODEN

    Rev. Oden. Thank you and good morning to the Honorable Mark 
Souder, chairman, and to Congressperson Diane Watson. It is a 
privilege to be able to present this morning.
    I am the Senior Pastor of Bryant Temple A.M.E. Church 
located here in South Los Angeles, as well as a founding member 
of the African American Summit on Violence Prevention. I want 
to share with you the summary of the work that we have done 
over the last 3 years.
    The full testimony has been presented to you so I am just 
going to deal with the highlights. The fact is that we came 
together some 3 years ago when Kerman Maddox had challenged our 
community to stop just wringing our hands about the problems 
but began looking at solutions for the problems. We had a 2-day 
summit meeting at USC to begin looking at a number of those 
issues.
    Several hundred African American leaders, parents, and 
activists joined together to begin that important conversation. 
Since then the summit has had door-to-door survey of the 
community in which we talked directly with the community. We 
have had workshops. We have conducted workshops. We have 
participated in cultural forums. We tried to make certain that 
we could hear many of the voices of the African American 
community. What we have come up with is this.
    No. 1, our community very much wants to see this problem 
resolved but the problem is greater than just the African 
American community. There is a culture of violence that is part 
of America and until we admit it ourselves, we are in a state 
of denial the same way the White House is in a state of denial 
with respect to the war in Iraq.
    The problem of violence is not just a young people problem. 
It is not just a problem of African Americans. It is not just a 
problem of people of color. It is a problem of all of America. 
There could be no peace without social, economic, and political 
justice. Let me say that again. There can be no peace without 
social, economic, and political justice and that is where we 
ultimately have to be.
    In my prepared remarks there are 24 recommendations that we 
have that we think are important in order to change the culture 
of violence that we have. It begins with our school system, 
which touches every one of our young people. We have to admit 
that the LA Unified School District has failed our children. 
When we have a 50 percent dropout rate of our young men after 
the 9th grade, that is a problem because they drop out from 
school and then going off to the streets and then to the 
prisons. Something has to be done about that.
    Something has to be done about the curriculum because there 
needs to be persons who are, in fact, involved in trying to 
change things. They need to talk to the young people in the 
schools in terms of a curriculum of prevention so that our 
young people can hear and see and feel that is going on. There 
is nothing more impactful than to have a mother stand before 
you and say, ``Look, my child has died as a result of 
violence.''
    This is no fun thing. This is no game and that needs to be 
said. There needs to be community survival training sessions so 
our young people as well as our adults can understand how to 
survive the streets of Los Angeles. There needs to be more 
organized forums for youth and parents around the issues of 
personal responsibility and violence prevention.
    Our foster care system needs to be overhauled. Within 24 
months of the emancipation from a foster care program more than 
three-fourths of the young people that come out of the program 
are then involved in the criminal justice system. We are 
training our young people in the wrong way.
    Our street intervention specialists are valuable resources. 
There needs to be more resources available, more funding for 
those persons who are specialized in getting out into the 
streets and getting out into the alleys and getting out into 
the nitty-gritty of our community. We need to support more 
mentoring programs directed at African American youth in 
particular.
    It takes a man to teach a man. Our young people don't 
understand what it is until they have a role model. We need to 
promote role models. We need to also have more community forums 
for racial dialog and not pretend like it don't exist in terms 
of problems between black and brown youth and black and brown 
folk in our community. We have to have conversations about 
that.
    We also have to promote more role modeling for both our 
young men and young women. We also have to teach our faith-
based communities how to have more effective programs. We 
cannot say just because we are a faith-based church or 
organization that we know what the best practices are. We need 
to promote what is working out there and there are many 
churches and faith-based organizations that really want to get 
involved.
    Then we have to deal with diversion of our young people 
away from the court systems. We sent too many of our young 
people to those basic training courses for the university of 
prisons. We need to keep them outside of the prison system. 
Then, finally, we need to make certain that our families have 
some place to call when they have a young person in crisis.
    Right now who do you call? Who do you call if you have a 
young person who needs to talk to somebody? There are no 
resources now. There needs to be resources. All 24 of our 
recommendations we provided to you in terms of testimony. We 
thank you for the opportunity to share. We thank Congresswoman 
Watson for her leadership that she has given to our community 
for a long time. Thank you so very much and God bless you.
    Mr. Souder. Thank you. I know Mr. Isaacs needs to go and 
anybody else who needs to. We have added one additional 
witness, somebody who is almost as well known as Congresswoman 
Watson. Will the Rev. Jesse Jackson please come forward. 
Whether you are a cabinet member or whoever, everybody needs to 
be sworn in in an oversight committee so if you will raise your 
hand.
    [Witness sworn.]
    Mr. Souder. Thank you for being willing to speak on this 
important subject. I look forward to hearing your words.
    [The prepared statement of Rev. Oden follows:]

    [GRAPHIC] [TIFF OMITTED] T5334.046
    
    [GRAPHIC] [TIFF OMITTED] T5334.047
    
    [GRAPHIC] [TIFF OMITTED] T5334.048
    
    [GRAPHIC] [TIFF OMITTED] T5334.049
    
    [GRAPHIC] [TIFF OMITTED] T5334.050
    
    [GRAPHIC] [TIFF OMITTED] T5334.051
    
    [GRAPHIC] [TIFF OMITTED] T5334.052
    
    [GRAPHIC] [TIFF OMITTED] T5334.053
    
                STATEMENT OF REV. JESSE JACKSON

    Rev. Jackson. Let me express my sincere thanks to 
Congresswoman Watson for giving us this platform of giving us 
the chance to express ourselves and for the testimonies I have 
heard already today. If I close my eyes I am in Kansas City, I 
am in Newark, I am in Atlanta. As we fight this arm of the 
crisis, it is not unique to Los Angeles. We are facing the 
devastating impact of an abandoned urban policy.
    Urban America has become the Valley of Death because of 
schemes of protracted genocide. We take various anecdotes or 
examples and act as if that is the problem or the solution. 
What do I mean by that, Sister Watson? I do not know of a gun 
shop in America owned by blacks. From LA to New York to Miami 
there is not a single black-owned gun shop in America or gun 
manufacturer. So where do the guns come from? Most cities ban 
the sale of guns, but the suburbs encircle the city with guns 
and make a profit off of the insurgents as it were. Make a 
profit off of bringing guns to where people kill and are 
killed, the flow of guns.
    We use satellites in Iraq. We know where guns are 
manufactured, where they come from, and we stop the flow of 
guns. We stop the insurgency. We have lost about 3,000 soldiers 
in 3 years in Iraq. We lose about 26,000 a year at home. We 
know where the guns come from and so to use this military 
language let's stop the supply line of the insurgents.
    You can't find a single ghetto in America that grows 
cocaine or heroin. We know the heroin comes from Afghanistan on 
the U.S. military occupation. We know that. We know the cocaine 
comes out of Colombia and Peru right down the Pan American 
Highway and is unloaded in Long Beach. We know that. We know 
where the guns and the drugs come from and who they prey upon 
and those victims at the caboose of that train end up in jails 
for profits now and in the street.
    I would like to say three things. Since I have been here 
working the last 3 days, No. 1, All Saints Church is under 
attack for freedom of speech. It is not just All Saints. It is 
all labor organizations are now facing IRS investigations. All 
civil rights groups are facing IRS investigations not unlike 
Dr. King leading the cry in 1955, indicted by the IRS in 1957 
for income tax evasion. The use of the Government to intimidate 
and try to nullify the free conscious of pulpits and labor and 
civil rights.
    Last night we watched as they threatened to close the 
hospital. If you look at a certain geographic area and you 
cutoff job training, cutoff Section 8 housing, you reduce the 
school budget, you cut access to hospitals, you have, in a 
sense, engaged in the hemorrhaging and the slow death of those 
who live where the water is cutoff or where the blood is 
cutoff.
    I guess my point is, (a) don't look at this issue through a 
keyhole but look at it through a door. It is a bigger issue. 
Some people are profiting from our misery. I would take this 
case, if I had to make a case, in the Valley of Dry Bones, and 
these bones are dry. At some point the bones have to get 
reconnected with a massive dose of unity and a will to fight to 
break the cycle of the killing.
    The fact is that music and media has not given us a comfort 
zone in our death, in the pseudo-religious music of pop 
culture. We are glorifying death to the generation. We are 
dancing our way to the graveyard and recycling a quality of 
life and lifestyle that is hemorrhaging us. I would make this 
case, Congresswoman, I don't know how many jobs it would take, 
just using, for example, in that area.
    How many jobs are we short? I don't know what the number is 
but whether it is 20,000 or 12,000, we need to know (a) how 
many jobs we need. How much skill, trade, training do we need 
so we can build where we live? If they gave all of us a house, 
we couldn't fix the spigot because we are not trained to build 
where we live. If we need 27,000 jobs, whatever that figure is, 
if we need trade skill training in every high school, that is 
what we need. If we need computer trade training in every high 
school, that is what we need.
    Then let us fight for what we need once we determine that. 
But I am finding in these ghettos around the country as I am 
traveling a combination of a rap sheet where you, in fact, need 
to be expunged, your record expunged. The combination of a rap 
sheet on the one hand and low credit score on the other and 
lower education on the other and unregistered voter you can't 
break out. You all follow me now?
    A combination of low education, low registration, a rap 
record, and a low credit score you can't work your way out. 
Thus, we need a massive commitment, a massive plan. If the 
magic number is 27,000, and I don't know where that figure 
comes from, it could be 50,000, let us fight for what we want, 
not cry about what we don't have. Right now we are basically 
complaining about what we don't have and explaining, ``Here is 
how I died. Here is how I got shot. Here is how I went to the 
funeral. Here is how my cousin got crippled. Here is how my 
uncle got killed.''
    We are describing how we are dying. We are not describing 
how we are going to live. So if the mail comes to us, if the 
Government comes to us, we have to be able to say what we want, 
what we are fighting for. We are describing how we are dying. 
We are not defining how we plan to live. I would make a case 
that we need to have a major dose of defining the content of 
our agenda.
    We have never, Rev. Oden, fought about what we lost and we 
have never lost a battle that we fought. We never won one we 
didn't fight. One more time. We have never lost a battle that 
we fought. We fought slavery and we won that battle. We fought 
Jim Crow and we won that battle. We fought for women's right to 
vote and won that battle. We fought for workers right to 
organize and won that battle.
    We have never fought a battle that we lost. We never won a 
battle that we didn't fight. Are we fighting for our share of 
jobs, job training, computer training? If we define what that 
number is, then we can rally around that number like Katrina. 
Our own tsunami. We have our own Katrina right here in South 
Central LA. Am I right about that? Thank you very much.
    Mr. Souder. Thank you. Mr. Isaacs, I have some additional 
questions.
    Congresswoman Watson, would you like to question?
    Ms. Watson. Yes. I just want to thank not only the 
panelists but the audience for coming here, for being patient, 
for remaining here, and for gathering the information that I 
hope you will take back to your neighborhood, your household, 
your loved ones. I want to thank all the panelists who have 
spent their time to share with us their ideas, their actions. 
What we are going to do working through the Chair, I hope, is 
formulate some policies.
    We know more now than we did before we came into this room. 
When you see this panel sitting here, the followup will be that 
we take this and we talk to ourselves as a committee and we 
have staff. May I say that I would like to thank your staff, 
Chairman Souder. Would they stand up, and my staff too. Just 
stand up. They will go back and they will process this 
information. We hope this will lead to some policy.
    I would like to thank Bishop Bryan who is a presiding pre-
lay for the 5th Episcopal District of the AME Church. I would 
like to thank Denise Hunter who is standing right over there at 
the wall who is president and CEO of F.A.M.E. Corp. Most of 
all, John Hunter, the senior pastor and CEO here at the 
F.A.M.E. Church Inc.
    Michael, I see you there. Yes, thank you. And Rev. Lorna. 
Thank you so much, all of you. I think we have possibly a 
direction to go in. You heard from law enforcement. You heard 
from the FBI. You heard from gang members. You heard from 
former gang members. You heard from the Sheriff's Department. 
You heard from community organizations and you heard from one 
of the most renowned civil rights leaders that is recognized 
around the globe.
    In closing, because I have to go on, Congressman, to the 
hearing that we are going to have with the Federal 
Communications Commission over at USC, the Davidson Center. You 
are all invited to come there. I want to say to you, Rev. Jesse 
Jackson, a group of us have been talking about a peace team. 
You, Bishop Tutu, and other renowned fighters for the rights of 
all people around this globe, to go to Darfur and to see if we 
can establish peace there. We are all emanating from that 
topic.
    Homeland security means that we protect not the land but 
the people on the land. You have your history, your experience, 
your ideas, but most of all the vision. I would hope that you 
would commit to being on the team that can assist our Secretary 
of State in trying to bring some peace and stop the genocide of 
our brothers and sisters thousands of miles away and stop the 
internal genocide that is going on in our streets across this 
country.
    With that I want to say thank you, all of you, the 
audience, the panelists, our chairman, Mr. Souder. This was 
something for you to bring the operation here and be patient to 
hear from all of us. I must make my exit. I am hosting the 
other meeting and it starts at 1. Thank you to all of you, 
staff, presenters, and audience.
    Mr. Souder. Thank you. In conclusion, we will have your 
full statements in. We have some additional questions. I wanted 
to let you each at least get your say and I am sure you would 
have had much more. I have had to hear a couple of things I 
didn't want to hear today as a Notre Dame grad. I heard Pete 
Carroll's name and USC twice and that is really hard. I very 
much appreciate your passion, your commitment to this. We will 
continue to work together and it has been very helpful.
    I think one of the important things about a hearing like 
this, even where we may not completely agree, I agree it is 
absolutely important that people in neighborhoods have the 
ability to speak to their Government. Congresswoman Watson 
arranged this and this is very important for everyone to speak 
out.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, will you take under consideration 
the Basic Training center for Life Skills for Youth in the 
Community as an after-school program where kids can go when 
they get out of school?
    Mr. Souder. I am on the Education Committee and we can look 
at the category and a particular grant would go through an 
individual Member of Congress.
    Mr. Jones. You would save hundreds of thousands of lives.
    Mr. Souder. Thank you very much. The subcommittee stands 
adjourned.
    [Whereupon, at 12:35 p.m. the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
